<html>
<title> - FUGITIVES: THE CHRONIC THREAT TO SAFETY, LAW, AND ORDER</title>
<body><pre>[Senate Hearing 106-1017]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1017

        FUGITIVES: THE CHRONIC THREAT TO SAFETY, LAW, AND ORDER

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2000

                               __________

                          Serial No. J-106-91

                               __________

         Printed for the use of the Committee on the Judiciary

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-292                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman
MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
                     Garry Malphrus, Chief Counsel
                    Glen Shor, Legislative Assistant


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................     5
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................     1

                               WITNESSES

Brooks, Israel, U.S. Marshal, District of South Carolina, 
  prepared statement.............................................    14
Dorgan, Hon. Byron L., a U.S. Senator from the State of North 
  Dakota.........................................................     2
Gallegos, Gilbert G., on behalf of the Fraternal Order of Police, 
  prepared statement and attachments.............................    35
Horton, Kevin, Detective Lieutenant, Massachusetts State Police 
  Fugitive Unit, Representing the National Association of 
  Fugitive Investigators, prepared statement.....................    24
Marshall, John W., Director, U.S. Marshals Service, Washington, 
  DC, prepared statement.........................................     6
Norris, Edward T., Commissioner, Baltimore Police Department, 
  prepared statement.............................................    18
Stephens, Andreas, on behalf of the Federal Bureau of 
  Investigation, prepared statement..............................    31
Sullivan, Patrick, Sheriff, Arapho County, representing the 
  National Sheriffs' Association, prepared statement.............    22

                                APPENDIX
                         Questions and Answers

Responses of John W. Marshall to questions from Senator Thurmond.    43
Responses of Edward T. Norris to questions from Senator Thurmond.    45
Responses of Patrick J. Sullivan, Jr., to questions from Senator 
  Thurmond.......................................................    46
Responses of Kevin Horton to questions from Senator Thurmond.....    47

                 Additional Submissions for the Record

Philip H. McKelvey, President, National Sheriffs' Association, 
  letter.........................................................    49
Richard J. Gallo, Federal Law Enforcement Officers Association, 
  letter.........................................................    50
Gilbert G. Gallegos, National President, Fraternal Order of 
  Police:
    letter supporting Fugitive Apprehension Act of 2000..........    49
    letter opposing S. 1898......................................    50
Robert T. Scully, Executive Director, National Association of 
  Police Organizations, Inc., letter.............................    50

 
        FUGITIVES: THE CHRONIC THREAT TO SAFETY, LAW, AND ORDER

                              ----------                              


                        THURSDAY, JUNE 22, 2000

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The committee will come to order. I am 
pleased to hold this hearing today regarding fugitives from 
justice and the serious threats they pose to the safety and 
security of cities and towns across America.
    Fugitives represent not only an outrage to the rule of law, 
they are also a serious threat to public safety. Many of them 
continue to commit additional crimes while they roam 
undetected.
    The number of wanted persons is truly alarming. There are 
about 45,000 felony warrants outstanding in Federal cases. 
There are over one-half million felony or other serious 
fugitives listed in the National Crime Information Center 
database. Yet, this is far less than the actual number of 
dangerous fugitives roaming the streets because many States do 
not put all dangerous wanted persons into the database. As 
recently reported in the Washington Post, California has 2.5 
million unserved felony and misdemeanor warrants and Baltimore 
has 61,000.
    Although violent crime in the United States has been 
decreasing in recent years, the number of serious fugitives has 
been climbing. The number of N.C.I.C. fugitives has doubled 
since 1987 and continues to rise steadily each year.
    Fugitives are the Achilles heel of law enforcement today. 
As the number of warrants rise, the problem can almost be 
overwhelming for law enforcement. Indeed, no one knows exactly 
how many fugitives there are.
    Each statistic represents a story. A few weeks ago, two men 
robbed a Wendy's restaurant in New York. To make sure there 
were no witnesses, they bound, gagged, and shot seven employees 
in the head execution-style, killing five of them. One of the 
men later arrested for the crime was a fugitive who was on the 
run after having been charged with two other robberies last 
year. If he had been caught earlier, these deaths may have been 
prevented. This is no isolated case. Almost daily, we read 
about fugitives in the newspaper who commit more crimes while 
on the run.
    The Marshals Service leads the Federal response to this 
national problem. In 1998, it placed a renewed emphasis on the 
problem and began significantly reducing a backlog of Federal 
warrants. Nevertheless, the number of warrants received by the 
Marshals Service continues to rise. Apprehending the rising 
number of Federal fugitives and helping States address their 
rising backlogs must be a top priority of the Marshals Service 
today.
    Toward that end, I have proposed legislation, along with 
Senator Biden, that would provide $45 million for the Marshals 
Service to form permanent fugitive task forces with State and 
local authorities. They would be modeled after the successful 
program that Mr. John Marshall operated while he was the U.S. 
Marshal for the Eastern District of Virginia.
    Task forces combine the expertise of the Marshals Service 
in these specialized investigations with the knowledge that 
local law enforcement has about their communities. This 
teamwork helps authorities prioritize and apprehend large 
numbers of dangerous criminals.
    The legislation would also provide administrative subpoena 
authority, which would allow investigators to track down leads 
about wanted persons faster and more efficiently. Currently, 
the time that it takes to get vital information, such as 
telephone or apartment rental records, through a formal court 
order can make the difference between whether a fugitive is 
apprehended or remains on the run.
    This bill has been endorsed by various law enforcement 
organizations, including the National Sheriffs Association, the 
Fraternal Order of Police, and the subpoena authority is 
supported by the administration. This legislation is an 
important step that we can take to help Federal and State law 
enforcement address the serious fugitive threat that exists in 
our country.
    Our witness at this time is John W. Marshall, the Director 
of the U.S. Marshals Service. Mr. Marshall is a career law 
enforcement officer with a distinguished record and impressive 
credentials. His most recent experience before taking the helm 
of the Marshals Service was as the U.S. Marshal for the Eastern 
District of Virginia, where he was responsible for fugitive 
apprehension efforts. Director Marshall, we appreciate your 
good work and would be happy to hear from you at this time.
    Senator Dorgan, would you like to make a statement?

  STATEMENT OF HON. BYRON L. DORGAN, A U.S. SENATOR FROM THE 
                     STATE OF NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I would 
make a brief statement and thank you for your indulgence.
    Mr. Chairman, I have introduced legislation in Congress 
that has been assigned to the Judiciary Committee and I wanted 
to make a comment about it today, hoping that perhaps relating 
to the topic that you are covering today, ``Fugitives and the 
Chronic Threat to Safety, Law, and Order,'' my legislation 
might be favorably considered.
    We have a circumstance in this country today where someone 
might be convicted of killing a child, as happened in North 
Dakota, where Kyle Bell murdered 11-year-old Gina North in a 
horrible murder. It was not his first act of violence, but this 
was a horrible murder of this young 11-year-old girl. He was 
convicted of that murder and then turned over to a private 
transport company to be transported to a prison out of State 
under the prisoner exchange agreements that exist between 
States. As they were moving through the State of New Mexico on 
a bus with 20 prisoners, Kyle Bell escaped. He has now been 
apprehended, but he was on the loose for some long while.
    Well, how did he escape? This private transport company, 
having taken custody of a convicted murderer and stopped for 
fuel. One guard was asleep on the bus, the other apparently in 
getting a cheeseburger at one of these fast food fuel places 
and Kyle Bell went out through the roof of this bus and was 
gone.
    I started looking into this, Senator Thurmond, and 
discovered that there are no standards at all for private 
companies that haul violent offenders in this country. I do not 
think convicted murderers should be transported by anyone other 
than the U.S. Marshals Service or some other venue of law 
enforcement, but the fact is, some States routinely contract 
with private companies that transport violent offenders. If 
they are going to continue to do that, and I do not propose 
that we prevent it, but if they are going to continue to do it, 
I believe the companies that are transporting these prisoners 
should have to meet some basic standards, some basic standards 
to protect the American public.
    The bill I have proposed, along with my colleague, Senator 
Ashcroft from Missouri, talks about those standards. It would 
have the Justice Department establish standards, standards that 
are no greater than the standards they themselves employ, but 
at least would be in a circumstance where we require basic 
standards to be met before we turn over a violent killer to a 
private transport company.
    Mr. Chairman, the chart you just saw was a description of 
Kyle Bell and his escape. By the way, when this child killer 
escaped from the private company, they did not know he was gone 
for 9 hours because they did not count the number of people 
they had on their bus.
    But this is not the only circumstance. I will show you a 
chart that shows other escapes from private prisoner transport 
companies of violent offenders and convicted murderers. In one 
State, a retired sheriff and his wife showed up with a minivan 
and a contract to transport six of Iowa's most notorious 
convicts, five of them convicted murderers. The convicts 
escaped from a husband and wife team. The husband and wife 
showed up at the prison with a contract to haul five convicted 
murderers and the prison warden looked at them and said, ``You 
have got to be kidding me,'' but, of course, they were not 
kidding. He had a contract.
    And you, Mr. Chairman, or I or anyone in this room can hire 
our neighbors or brother-in-laws or our cousins, buy a minivan, 
and decide we are in business to haul violent criminals around 
this country. We do not have to meet any standards. There are 
no standards at all. We are just in business. And that is what 
is wrong with the current circumstance.
    Now, when Kyle Bell, a convicted child killer, escaped from 
custody, he should have never been in the custody, in my 
judgment, of a private company. Once convicted of murder, he 
ought to have been in the embrace of law enforcement officials 
until he was given his permanent address, a prison cell. But 
that, regrettably, did not happen.
    Now, we can correct this. Anyplace in this country where 
you see those--and these are just some of the escapes from 
private companies, but when you see this, you see danger of a 
family driving up to a service station someplace and perhaps 
not knowing that the vehicle next to them, the minivan next to 
them that is fueling up, has a couple of convicted murderers on 
board that is being hauled by a private company to a prison in 
some remote location.
    We can change that, and we can change that by passing the 
legislation that Senator Ashcroft and I have introduced here in 
the Congress. Senator Ashcroft and Senator Leahy, also a member 
of this distinguished committee, has cosponsored this 
legislation.
    Let me, without spending more time, simply make the case 
that you have, by this hearing, drawn attention to the issue of 
fugitives, and that is an issue that, Mr. Chairman, does not 
nearly get the attention it deserves. People on the loose, 
fugitives on the loose, violent criminals that are on the loose 
in this country endanger the American public. There are risks 
from that that, in my judgment, are unacceptable. You are 
calling attention to that today, and I wanted to use this 
occasion to call attention to a piece of legislation that I 
think aims directly at the heart of that issue, violent 
criminals who are escaping from private transport companies.
    In fact, just as a concluding remark, Mr. Chairman, there 
was a convicted murderer from the State of Nevada who was being 
transported to North Dakota under a prisoner exchange 
agreement. Well, the company that was transporting this felon, 
named Mr. Prestridge, lost him. He escaped, along with another 
felon, and the second felon was found with a bullet in his 
brain south of the border in Mexico. Mr. Prestridge has now 
been reapprehended and is back in prison in Nevada.
    But while Mr. Prestridge was out on the loose, what 
happened? Did he commit additional crimes? While Kyle Bell was 
on the loose, did he commit additional crimes? We do not know 
the answer to that, but we know that the public is put at risk.
    A final statement. When this country convicts violent 
offenders, when the criminal justice system in this country 
convicts someone of killing, that person ought not leave the 
arms of law enforcement. When they are to be transported 
someplace, they ought to be transported by law enforcement. In 
any event, if some states or local governments decide they are 
going to employ private companies to transport them, the 
American public has a right to know that these companies are 
meeting basic guidelines and standards and regulations. Today, 
there are none, and that is a disgrace. This Congress needs to 
pass our legislation.
    Mr. Chairman, thank you for drawing attention to this issue 
of fugitives and I hope, Mr. Chairman, that perhaps you would 
be interested in joining as a cosponsor at some point on the 
bill that Senator Ashcroft and I and Senator Leahy and others 
will be pushing.
    Senator Thurmond. Put me on it.
    Senator Dorgan. Well, God bless you, Mr. Chairman. Thank 
you very much.
    Senator Thurmond. Thank you. We are looking into it and I 
will add my name just as soon as we get through it.
    Senator Dorgan. I understand it. Thank you very much, Mr. 
Chairman.
    Senator Thurmond. Thank you.
    At this time I would like to place into the record a 
statement from Senator Patrick Leahy:
    [The prepared statement of Senator Leahy follows:]

 Prepared Statement of Hon. Patrick J. Leahy, A U.S. Senator From the 
                            State of Vermont

    As a former prosecutor, I am well aware that fugitives from justice 
are an important problem and that their capture is an essential 
function of law enforcement. According to the FBI, nearly 550,000 
people are currently fugitives from justice on federal, state, and 
local felony charges combined. This means that there are almost as many 
fugitive felons as there are citizens residing in my home state of 
Vermont.
    The fact that we have more than one half million fugitives from 
justice, a significant portion of whom are convicted felons in 
violation of probation or parole, who have been able to flaunt courts 
order and avoid arrest, breeds disrespect for our laws and poses 
undeniable risks to the safety of our citizens. We must do better. S. 
2761, the Leahy-Kohl ``Capturing Criminals Act of 2000,'' which I 
introduced yesterday, will provide additional tools and resources to 
our federal law enforcement agencies to pursue and capture fugitive 
felons on both federal and state charges.
    Our federal law enforcement agencies should be commended for the 
job they have been doing to date on capturing federal fugitives and 
helping the states and local communities bring their fugitives to 
justice. The U.S. Marshals Service, our oldest law enforcement agency, 
has arrested over 120,000 federal, state and local fugitives in the 
past four years including more federal fugitives than all the other 
federal agencies combined. In prior years, the Marshals Service 
spearheaded special fugitive apprehension task forces, called FIST 
Operations, that targeted fugitives in particular areas and was 
singularly successful in arresting over 34,000 fugitive felons.
    Similarly, the FBI has established twenty-four Safe Streets Task 
Forces exclusively focused on apprehending fugitives in cities around 
the country. Over the period of 1995 to 1999, the FBI's eforts have 
resulted in the arrest of a total of 65,359 state fugitives.
    The Capturing Criminals Act would help our law enforcement agencies 
keep the pressure on fugitives by authorizing the Attorney General to 
establish regional Fugitive Apprehension Task Forces, to be coordinated 
by the United States Marshals Service; authorizing administrative 
subpoenas for use in obtaining records relevant to finding federal and 
state fugitives; and, finally,requesting a comprehensive report on the 
administrative subpoena authorities held by federal agencies, which 
vary in scope, enforcement and privacy safeguards.
    ``Administrative subpoena'' is the term generally used to refer to 
a demand for documents or testimony by an investigative entity or 
regulatory agency that is empowered to issue the subpoena independently 
and without the approval of any grant jury, court or other judicial 
entity. I am generally skeptical of administrative subpoena power. 
Administrative subpoenas avoid the strict grand jury secrecy rules and 
the documents provided in response to such subpoenas are, therefore, 
subject to broader dissemination. Moreover, since investigative agents 
issue such subpoenas directly, without review by a judicial officer or 
even a prosecutor, fewer `checks'' are in place to ensure the subpoena 
is issued with good cause and not merely as a fishing expedition.
    Nonetheless, unlike initial criminal inquiries, fugitive 
investigations present unique difficulties. Law enforcement may not use 
grand jury subpoenas since, by the time a person is a fugitive, the 
grand jury phase of an investigation is usually over. Use of grand jury 
subpoenas to obtain phone or bank records to track down a fugitive 
would be an abuse of the grand jury. Trial subpoenas may also not be 
used, either because the fugitive is already convicted or no trial may 
take place without the fugitive.
    This inability to use trial and grand jury subpoenas for fugitive 
investigations creates a disturbing gap in law enforcement procedures. 
Law enforcement partially fills this gap by using the All Writs Act, 28 
U.S.C. Sec. 1651(a), which authorizes federal courts to ``issue all 
writs necessary or appropriate in aid of their respective jurisdictions 
and agreeable to the usages and principles of law.'' The procedures, 
however, for obtaining orders under this Act, and the scope and 
nondisclosure terms of such orders, vary between jurisdictions.
    Thus, authorizing administrative subpoena power will help bridge 
the gap in fugitive investigations to allow federal law enforcement 
agencies to obtain records useful for tracking a fugitive's 
whereabouts. The Leahy-Kohl Capturing Criminals Act makes clear that 
the approval of a court remains necessary to obtain an order for 
nondisclosure of the subpoena and production of the requested records 
to the subscriber or customer to whom the records pertain.
    I am certainly not alone in recognizing the problem this nation has 
with fugitives from justice. Senators Thurmond and Biden have 
introduced the ``Fugitive Apprehension Act,'' S. 2516, specifically to 
address the difficulties facing law enforcement in this area. I commend 
both my colleagues for their leadership. While I agree with the general 
purposes of S. 2516, aspects of that bill would be problematic. I look 
forward to working with my colleagues on the Judiciary Committee to 
resolve the differences in our bills.
    Without detailing all of the differences in the bills, let me 
provide some examples. As introduced, S. 2516 would limit use of an 
administrative subpoena to those fugitives who have been ``indicted,'' 
which fails to address the fact that fugitives flee after arrest on the 
basis of a ``complaint'' and may flee after the prosecutor has filed an 
``information'' in lieu of an indictment.
    The Leahy-Kohl ``Capturing Criminals Act,'' by contrast, would 
allow use of such subpoenas to track fugitives who have been accused in 
a ``complaint, information or indictment.''
    In addition, S. 2516 requires the U.S. Marshal Service to report 
quarterly to the Attorney General (who must transmit the report of 
Congress) on use of the administrative subpoenas. In my view, while a 
reporting requirement is useful, the requirement as described in S. 
2516 is overly burdensome and insufficiently specific. The Leahy-Kohl 
``Capturing Criminals Act'' would require the Attorney General to 
report for the next three years to the Judiciary Committees of both the 
House and Senate with the following information about the use of 
administrative subpoenas in fugitive investigations: the number issued, 
by which agency, identification of the charges on which the fugitive 
was wanted and whether the fugitive was wanted on federal or state 
charges.
    Although S. 2516 outlines the procedures for enforcement of an 
administrative subpoena, it is silent on the mechanisms for both 
contesting the subpoena by the recipient and for delaying notice to the 
person about whom the record pertains. The Leahy-Kohl ``Capturing 
Criminals Act'' expressly addresses these issues.
    This legislation will help law enforcement--with increased 
resources for regional fugitive apprehension task forces and 
administrative subpoena authority--bring to justice both federal and 
state fugitives who, by their conduct, have demonstrated a lack of 
respect for our nation's criminal justice system. I look forward to 
working with my colleagues to ensure swift passage of this legislation.

    Senator Thurmond. We will now turn to Mr. Marshall for his 
opening statement.

STATEMENT OF JOHN W. MARSHALL, DIRECTOR, U.S. MARSHALS SERVICE, 
                         WASHINGTON, DC

    Mr. Marshall. Thank you, Mr. Chairman, and good afternoon. 
I would like to thank you for your strong support of the 
Marshals Service, and on behalf of the 2,800 deputy marshals, 
thank you for introducing the Fugitive Apprehension Act of 
2000, which provides for administrative subpoena authority in 
fugitive investigations and authorizes the establishment of 
permanent task forces. I would also like to thank Senators 
Biden and DeWine for their cosponsorship of this very important 
initiative.
    Further, I understand that yesterday, Senator Leahy, a 
strong advocate for the Marshals Service, introduced the 
Capturing Criminals Act of 2000, which also authorizes funding 
for task forces and provides for administrative subpoena 
authority. We look forward to working with the committee on 
both of these bills.
    Before I begin my testimony, I would like to pay tribute to 
Deputy U.S. Marshal Peter Hillman. The Marshals Service lost 
Deputy Hillman on June 8 in a tragic vehicle crash which 
occurred while he was transporting prisoners. Peter was a 14-
year veteran of the Marshals Service who spent his career in 
California and was committed to carrying out his duties. The 
Marshals Service will always remember Deputy Hillman and he 
will be missed greatly.
    The Marshals Service is the oldest Federal law enforcement 
agency. We are responsible for protecting the Federal 
judiciary, the custody and transportation of pretrial and 
unsentenced Federal prisoners, providing witness protection, as 
well as the management and disposal of seized and forfeited 
properties. Today, I am here to discuss the apprehension of 
Federal fugitives, one of the Marshals Service's primary 
missions.
    The security problems that fugitives pose for every citizen 
of this country are numerous, costly, and most importantly, 
life threatening. Fugitives are mobile and opportunistic, 
preying on innocent citizens by committing crimes against 
persons and property everywhere.
    As a former Virginia State Trooper, I have firsthand 
knowledge of the dangers that fugitives pose to well-meaning 
officers who may inadvertently come into contact with them. On 
January 3, 1986, Virginia State Trooper Ricky M. McCoy was 
viciously gunned down during a traffic stop. After the 
incident, it was discovered that his two assailants were wanted 
on State warrants for murder. Trooper McCoy was with the State 
Police for 6 years and was newly wed when he was killed. Ricky 
was my roommate for 19 weeks during our State Police basic 
training. As coincidence would have it, his middle initial 
``M'' stood for Marshall. I will never forget Ricky.
    What happened to Trooper McCoy illustrates the threat 
fugitives pose to the safety of law enforcement officers. By 
statute, the Marshals Service has the authority to investigate 
fugitive matters both within and outside the United States. 
Each year, we arrest more fugitives than all other Federal 
agencies combined. In the first 7 months of this fiscal year, 
the Marshals Service has arrested well over 15,000 Federal 
fugitives. Our State and local task forces have arrested almost 
9,000 fugitives.
    Domestically, the Marshals Service has sponsored several 
special fugitive operations over many years. Since 1981, 
Marshals Service fugitive operations have resulted in the 
apprehension of tens of thousands of fugitives and were the 
impetus behind the numerous fugitive task forces in which we 
participate today.
    Presently, we participate in 128 task forces and lead over 
60 of these nationwide. In South Carolina, we are the lead 
agency on Operation Intercept. You will hear more about this 
operation and its successes from U.S. Marshal Israel Brooks. 
This fiscal year, our New York task forces have cleared well 
over 250 Federal, State, and local warrants. In Vermont, we 
have cleared over 200.
    One initiative with which I am personally familiar and take 
great pride in was a Richmond area fugitive task force. This 
operation was conducted during a 3-month period in the summer 
of 1998 when I was the Marshal for the Eastern District of 
Virginia. During this initiative, deputy marshals and Richmond 
police officers teamed up to review, prioritize, and 
investigate nearly 1,700 arrest warrants for fugitives charged 
with violent crimes, such as murder, armed robbery, and 
narcotics violations. This initiative led to the clearance of 
514 arrest warrants, including 293 by physical arrest. In 
addition, deputy marshals apprehended a group of five 
individuals just before they were to carry out a drive-by 
shooting.
    The Marshals Service has apprehension authority for arrest 
warrants issued by U.S. District Courts and the Parole 
Commission for a variety of violations of Federal law. Unlike 
other agencies with diverse investigative missions, our primary 
investigative responsibility is the apprehension of fugitives. 
The Marshals Service traditionally does not independently 
initiate investigations for crimes against the United States. 
The responsibility of the Marshals Service is to return the 
fugitive before the court of original jurisdiction so that a 
judicial process can be completed.
    Let me give you an example of this. We recently 
investigated a case involving an alleged armed robber. The 
fugitive was arrested in April of this year by members of two 
of our fugitive task forces in conjunction with local law 
enforcement. The fugitive shot and robbed a 19-year-old man. 
Luckily, he survived. The fugitive fled on foot as police 
officers arrived on the scene. In flight, the fugitive turned 
and fired nine rounds at the officers. Miraculously, no 
officers or citizens were killed or wounded by the fugitive. 
However, he did manage to elude capture.
    Local law enforcement turned to the Marshals' task force 
for assistance. In just 22 days, task force investigators, 
along with local police, tracked down and arrested the 
fugitive. A search of the residence was conducted, which 
resulted in the seizure of two handguns and one sawed-off 
shotgun. Detectives from the local police department determined 
that the fugitive was involved in 29 unsolved armed robberies 
in recent weeks, as well as a bank robbery committed only hours 
before the arrest. Any of these 30 crimes could have ended in 
tragedy.
    In closing, I would like to thank you, Mr. Chairman, for 
inviting me here to speak to the subcommittee today on behalf 
of the men and women of the U.S. Marshals Service, the greatest 
fugitive investigators in the world. I look forward to working 
with you and the committee on the task force and administrative 
subpoena legislation. Thank you.
    Senator Thurmond. Thank you.
    [The prepared statement of Mr. Marshall follows:]

                  Prepared Statement of John Marshall

    Good afternoon Mr. Chairman, Senator Schumer, and members of the 
subcommittee. Mr. Chairman, I would like to thank you for your strong 
support of the Marshals Service and on behalf of the 2,800 Deputy U.S. 
Marshals, for introducing the Fugitive Apprehension Act of 2,000, which 
provides for administrative subpoena authority in fugitive 
investigations. I would also like to thank Senators Biden and DeWine, 
for their co-sponsorship of this very important initiative.
    Further, I understand that yesterday Senator Leahy, a strong 
advocate for the Marshals Service, has introduced the Capturing 
Criminals Act of 2000 which also authorizes funding for task forces and 
provides for administrative subpoena authority. We look forward to 
working with the Committee on both these bills.
    Before I begin my testimony, I would like to pay tribute to Deputy 
U.S. Marshal Peter Hillman. The Marshals Service lost Deputy Hillman on 
June 8th in a tragic vehicle crash which occurred while he was 
transporting prisoners. Deputy Hillman was a 14 year veteran of the 
Marshals Service who spent his career in California and was committed 
to carrying out his duties as a Deputy United States Marshal. Peter 
lent support to the community of the Virgin Islands after Hurricane 
Marilyn, apprehended fugitives during Operation Sunrise, provided 
security at a high threat trial in Montana, as well as the Olympic 
Games in Atlanta. The Marshals Service will always remember Deputy 
Hillman, and he will be missed greatly.
    The United States Marshals Service is the oldest federal law 
enforcement agency. We are responsible for protecting the federal 
judiciary, the custody and transportation of pretrial and unsentenced 
federal prisoners, providing witness protection, as well as the 
management and disposal of seized and forfeited properties.
    Today I am here before the subcommittee to discuss the apprehension 
of federal fugitives, one of the Marshals Services' primary missions, 
and our role on fugitive task forces. The security problems that 
fugitives pose for every citizen of this country are numerous, costly, 
and most importantly, life-threatening. By definition and nature, 
fugitives are mobile and opportunistic, preying on innocent citizens by 
committing crimes against persons and property everywhere.
    As the head of the oldest law enforcement agency and as a former 
Virginia State Trooper, I have first-hand knowledge of the dangers that 
fugitives pose to well-meaning officers who may inadvertently come into 
contact with them. On January 3, 1986, Virginia State Trooper Ricky M. 
McCoy, was viciously gunned down during a traffic stop. After the 
incident, it was discovered that his two assailants were wanted on 
state warrants for murder. Trooper McCoy was with the State Police for 
six years and was married for less than a year. Ricky was my room-mate 
for 19 weeks during our State Police basic training. As coincidence 
would have it, his middle initial M stood for Marshall. I will never 
forget Ricky.
    What happened to Trooper McCoy illustrates the threat fugitives 
pose to the safety of law enforcement officers. Far too often, a police 
officer making contact with a person on the street or on a lonely 
highway for a traffic violation or other reason is injured or killed 
because thesubject in question is a wanted fugitive. During this 
initial contact, the officer naromally is not aware that the person is 
wanted. The fugitive knows his status and is motivated to evade the 
law.
    By statute, the Marshals Service has the authority to investigate 
fugitive matters both within and outside the United States. Each year, 
the Marshals Service arrests more fugitives than all other federal 
agencies combined. In the first seven months of this fiscal year, the 
Marshals Service has arrested well over 15,000 federal fugitives. In 
addition, our state and local task forces have arrested almost 9,000 
fugitives.
    Domestically, the Marshals Service has sponsored several special 
fugitive operations over many years. Since 1981, the Marshals Service 
has sponsored a number of short-term initiatives which were focused on 
the apprehension of federal, state and local fugitives. Operations 
Southern Star, Sunrise, Gunsmoke, and Trident are our more notable 
short-term initiatives. These have been region-specific or offender-
specific (for example, narcotics or firearms warrants). Operation 
Southern Star yielded 3,928 arrests, Operation Sunrise produced 1,495 
arrests, Operation Gunsmoke resulted in 3,313 arrests, and Operation 
Trident produced 9,467 arrests and 411 firearms seized. All of the 
Marshals Service's fugitive operations have resulted in the 
apprehension of tens of thousands of fugitives and were the impetus 
behind the numerous permanent fugitive task forces in which we 
participate today.
    Presently, we participate in 128 task forces and lead over 60 of 
these fugitive task forces nationwide. Our task forces concentrate on 
apprehending federal, state, and local fugitives. In South Carolina we 
are the lead agency on Operation Intercept. You will hear more about 
Operation Intercept and its successes from United States Marshal Israel 
Brooks.
    Our initiative with which I am personally familiar, and take great 
pride in, was the Richmond Area Fugitive Task Force. This operation was 
conducted in Richmond, Virginia during a 3-month period in the summer 
of 1998. At that time, I was serving as the United States Marshal for 
the Eastern District of Virginia. During this initiative, Deputy 
Marshals and Richmond Police Officers teamed up to review, prioritize, 
and investigate nearly 1,700 arrest warrants for fugitives charged with 
violent crimes such as Murder, Attempted Murder, Armed Robbery, 
Assault, Narcotics Violations, and Probation or Parole Violations. This 
initiative led to the clearance of 514 arrest warrants, including 293 
by physical arrest. In addition, Deputy Marshals apprehended a group of 
five individuals just before they were to carry out a drive-by 
shooting.
    Fugitives threaten the very fabric of our criminal justice system. 
By definition, they have been charged with a violation of law. They may 
have been charged but not yet arrested, released on bail and fled to 
avoid prosecution, escaped from jail or prison, or absconded from or 
otherwise violated the terms of their probation or parole. These 
actions constitute an affront to our justice system. When fugitives 
flee from their charges our legal system is severely threatened. . . . 
Prosecutors cannot try cases, society is deprived of justice and order, 
and crime victims are denied their rights. They may, in fact, live in 
fear and isolation while thecriminals who have victimized them remain 
at large.
    In addition, when warrants become backlogged and the number of 
fugitives multiply, it sends a subtle message to others that flight and 
failure to comply with the law is acceptable and easy. A final 
consequence is that law enforcement agencies may have spent thousands 
or hundreds of thousands of dollars to organize a prosecutorial 
criminal case against a defendant or criminal organization. When a 
defendant flees from the charges, these valuable expended resources are 
for naught.
    The United States Marshals Service has apprehension authority for 
arrest warrants issued by United States District Courts and the United 
States Parole Commission for a variety of violations of federal law. 
The Marshals Service traditionally receives arrest warrants based on a 
grand jury indictment or when an individual escapes from custody, jumps 
bond, violates the conditions of release by engaging in further 
criminal activity, or fails to appear. In addition, pursuant to 
Department of Justice orders--and in connection with a number of 
interagency memoranda of understanding--the Marshals Service also 
pursues fugitives wanted by the Drug Enforcement Administration, the 
United States Customs Service, Internal Revenue Service, and a number 
of other federal agencies, as well as foreign fugitives wanted on 
charges in other nations.
    The Marshals Service's criminal investigation efforts are 
specifically focused on fugitives. Unlike other law enforcement 
agencies with diverse investigative missions, our primary investigative 
responsibility is the apprehension of fugitives. The Marshals Service 
traditionally does not independently initiate investigations against 
individuals for crimes against the United States. Instead, the Marshals 
Service responds to arrest warrants that have been issued for 
individuals by judicial officers or, in the case of convicted felons, 
by a parole commission or equivalent entity. these individuals have 
already been charged by a court, indicted by a grand jury or, in many 
cases, tried and convicted by a jury or judge. Probable cause or some 
greater burden of proof has already been proven. the responsibility of 
the Marshals Service is to return the person before the court of 
original jurisdiction so that the judicial process can be completed.
    Upon receipt of any arrest warrant, the first order of business is 
to properly identify the subject of the arrest warrant and to enter the 
subject's biographical and warrant data into the Marshals Service's 
Warrant Information Network (WIN). WIN is a comprehensive warrant 
management system that tracks all fugitive-related information, as well 
as statistical information related to the Marshals Service fugitive 
apprehension program. The WIN system also provides all Marshals Service 
offices nationwide with access to the National Crime Information Center 
(NCIC) and the National Law Enforcement Telecommunications System 
(NLETS). Both of these systems are clearinghouses for criminal justice 
information related to wanted persons, criminal history information, 
driver and vehicle registration information, as well as a myriad of 
other related indices. In addition, they serve as real-time 
administrative communication networks to federal, state, and local law 
enforcement and criminal justice agencies nationwide.
    Fugitive cases are assigned to our Deputy U.S. Marshals for 
investigation andapprehension. Depending on the complexity of the case 
and other circumstances, the duration of fugitive investigations ranges 
from a matter of hours from receipt of the warrant to, in extreme 
cases, years. Recently, the Marshals Services found that the average 
duration of an investigation ranged from 64 days to 218 days, dependent 
on the category of the investigation. The Marshals Service has reviewed 
its current database of warrants outstanding on its most dangerous 
fugitives. Results showed that the ``average'' fugitive is a 38 year-
old male, wanted in connection with narcotics violations, with a record 
of four prior arrests, including one arrest for a violent crime. These 
violent offenders take, on average, 179 days to apprehend.
    Fugitives are as diverse as our society. They transcend gender, 
ethnicity, religion, age, educational background, and any other 
demographic parameters that one can offer. Every day in this country, 
fugitives are arrested in America's inner cities, suburbs, and rural 
areas. As evidenced by testimony of people on such reality-based 
television shows as ``American's Most Wanted,'' and by the experience 
of our investigators, ordinary citizens are often very surprised to 
find that they have been living next door to a wanted dangerous felon.
    In the past year, the Marshals Service opened an office, on a 
temporary basis in Mexico City. The focus of this operation was to 
pursue and apprehend non-Mexican fugitives wanted in the United States. 
So far, the success of the Deputy U.S. Marshals has been significant. 
The number of fugitive cases closed and extradited during the first 
seven months of operations exceeded the previous seven years' total. We 
have just recently assigned Deputies temporarily to Jamaica and the 
Dominican Republic. After three months of operation in Jamaica, the 
Marshals Service exceeded the totals of extraditable fugitives from the 
previous two years. The federal, state, and local fugitives are 
realizing that they will be apprehended outside the borders of the 
United States.
    A recent investigation in the Northeast United States involved an 
alleged armed bank robber. Because the fugitive will be going to trial 
on these charges soon I cannot disclose his identity. The fugitive was 
arrested in April of this year by members of two of our Fugitive Task 
Forces in conjunction with local law enforcement. The fugitive 
confronted a 19 year old man, who was walking down the street, then 
shot and robbed him. Luckily, the young man survived. The fugitive fled 
on foot as police officers arrived at the scene. In flight, the 
fugitive turned and fired nine rounds at the officers who were pursuing 
him. Miraculously, no officers or citizens were killed or wounded by 
the fugitive; however, he did manage to elude capture. The local law 
enforcement turned to the U.S. Marshals Fugitive Task Force for 
assistance.
    Twenty two days later, Marshals Service Task Force investigators 
tracked down the fugitive. That afternoon, Task Force investigators 
along with local police arrested the fugitive. A search of the 
residence was conducted which resulted in the seizure of two handguns 
and one sawed-off shotgun. Detectives from the local Police Department 
determined that the fugitive was involved in twenty-nine unsolved armed 
robberies in recent weeks as well as a bank robbery committed only 
hours before the arrest. Any one of these 30 crimes could have ended in 
tragedy. It has been the Marshals Service's experience that the longer 
a fugitive remains at large, the more brazen and violent the fugitive 
becomes.
    Since these fugitives know they are wanted, they are continually on 
the run. Fugitive investigations are fluid and time is of the essence 
when gathering information and executing investigative leads. A 
fugitive may literally, be ``here today and gone in an hour.'' The 
Marshals Service aggressively pursues fugitives using a wide range of 
investigative techniques, ranging from the most basic and traditional 
to applying some of the most sophisticated technology currently 
available. The Marshals Service must act quickly to apprehend these 
fugitives. One critical tool that would assist the Marshals Service in 
apprehending individuals wanted pursuant to a court order is 
administrative subpoena authority.
    In closing, I would thank you, Mr. Chairman for inviting me here to 
speak to the Subcommittee today, on behalf of the women and men of the 
Marshals Service--the greatest fugitive investigators in the world. In 
addition to capturing federal fugitives, I am also proud of our long 
history of assisting state and local law enforcement agencies as well 
as our strong cooperative relationships with these agencies. We take 
pride in our success--it is a successful day for the Marshals Service 
and our nation when we use our expertise to arrest any fugitive whether 
it be a federal, state or local case.

    Senator Thurmond. I have a few questions for you, Mr. 
Marshall. Mr. Marshall, does apprehending dangerous Federal 
fugitives and assisting States with their fugitive backlogs 
have the top priority of the Marshals Service today and would 
enacting the Fugitive Apprehension Act assist you in this way?
    Mr. Marshall. Mr. Chairman, it would be a tremendous 
assistance to us. As you probably know, around the country, our 
Deputy U.S. Marshals are criminal investigators, but they do 
the vast majority of their fugitive work--they have to do that 
with the court's schedule in mind and the dockets and moving 
prisoners. So this task force proposal, initiative, would give 
us the full-time permanent positions to be dedicated solely to 
the investigation and apprehension of fugitives, and yes, it 
would be of tremendous assistance to us.
    Senator Thurmond. Mr. Marshall, in 1998, the Marshals 
Service initiated an effort to help clear the Federal warrant 
backlog. How are you targeting prioritizing warrants and would 
you like to do more through task forces to assist State and 
local authorities in this regard?
    Mr. Marshall. Mr. Chairman, in 1998, we were asked by the 
Attorney General to reduce our backlog of fugitive warrants, 
and backlog are warrants of a year or older. We were 
successful. We wanted a 20 percent reduction of our warrants 
and we were able to do that. As a matter of fact, we exceeded 
the reduction rate that the Attorney General asked us to 
accomplish.
    Mr. Chairman, also, we certainly do prioritize our cases. 
We have our top 15 most wanted, along with our violent 
offenders, which are all in what we consider our Class 1 
warrants, along with those that we, through memorandums of 
understanding from other agencies, we are tasked with primary 
responsibility for handling those.
    Senator Thurmond. Mr. Marshall, is there a problem today 
with fugitives fleeing south across the border to Mexico and 
how cooperative is Mexico in extraditing fugitives?
    Mr. Marshall. Mr. Chairman, there is a problem with 
fugitives fleeing into Mexico. Recognizing that problem, in 
1998, we assigned deputy marshals to Mexico City, and in their 
first 7 months of operation, they arrested more Federal 
fugitives than in the 7 prior years, of fugitives who had fled 
to Mexico.
    Senator Thurmond. Mr. Marshall, you stated in your 
testimony that you needed administrative subpoena authority to 
help you track fugitives quickly. Is it difficult and time 
consuming to get court orders for information and are you aware 
of cases where the process took so long that you lost track of 
the fugitive?
    Mr. Marshall. In fugitive investigations, Mr. Chairman, 
time is of the essence. Literally, fugitives can be here today 
and gone in an hour. Often, it has been our experience that in 
order to obtain a court order, it takes 2 or 3 days or more to 
do that, and oftentimes that delay allows the fugitive to keep 
one step ahead of us.
    We did have a case recently this year, as a matter of fact, 
in May of this year, in Doraville, GA, where a police officer 
who was investigating thefts from a vehicle in a nightclub 
parking lot was shot by an assailant. He was shot three times, 
and the fourth time he was shot at point-blank range right 
through his badge. The assailant also shot the owner of the 
nightclub in the face before fleeing.
    We were contacted by the local police department to provide 
some assistance in tracking the subject. The officer had been 
able to get the subject's wallet from him and that was left at 
the scene. We were asked to assist them in tracking the 
subject, which we did, and we were able to develop information 
that the subject was staying at a large horse farm in one of 
the outlying counties. We also had information that he was 
making numerous calls from a certain phone number and we knew 
that phone number was somewhere on that farm, but we did not 
know which farmhouse or which building. There were numerous 
buildings and all the buildings had telephones in them.
    In the current system, we would have to pursue that through 
getting a court order. Meanwhile, during the time that it took 
and our efforts to get a court order, the subject and his co-
assailant luckily were apprehended as they were leaving through 
the woods by a sheriff's deputy who was coming to assist us 
with providing surveillance of the area. This is clearly a case 
where, if we had the administrative subpoena authority, we 
could have quickly found out which house, which farmhouse the 
subject was making these calls from and would have been able to 
apprehend him quickly and we would not have run the risk that 
we did of almost losing him.
    Senator Thurmond. Mr. Marshall, do other Justice Department 
agencies have administrative subpoena authority for certain 
crimes, such as drugs or child pornography, and has this worked 
well in practice?
    Mr. Marshall. Yes, Mr. Chairman. Other agencies do have the 
administrative subpoena authority. By virtue ofour memorandum 
of understanding with the Drug Enforcement Administration to assume 
primary responsibility for their fugitives, I am most familiar with 
their cases and the administrative subpoena authority has been an 
invaluable tool to them and has also assisted us on our work with them 
to apprehend their fugitives.
    Senator Thurmond. Mr. Marshall, the Marshals Service tracks 
fugitives for numerous Federal agencies. Is it generally more 
efficient and effective for the Marshals Service to assist 
other Federal agencies with apprehending fugitives rather than 
each agency tracking their own fugitives?
    Mr. Marshall. Yes, Mr. Chairman, I definitely believe that, 
and with regard to the administrative subpoena power, I think 
that, without a doubt, that authority should be given to those 
agencies who, by statute, have authority to investigate 
fugitive cases.
    Senator Thurmond. I think those are all the questions I 
have at this time. Thank you very much.
    Mr. Marshall. Thank you, Mr. Chairman. Mr. Chairman, with 
your permission, if I could, I have several U.S. Marshals who 
have accompanied me here today and I would like to introduce 
them for just a minute.
    I recognize U.S. Marshal Israel Brooks from South Carolina.
    Senator Thurmond. Please stand up, and thank you very much. 
We are glad to have you.
    Mr. Marshall. U.S. Marshal George McKinney from the 
District of Maryland.
    Senator Thurmond. Where is he? Thank you very much.
    Mr. Marshall. U.S. Marshal Tim Mulaney from the District of 
Delaware.
    Senator Thurmond. Thank you.
    Mr. Marshall. Marshal Dave Troutman from the Northern 
District of Ohio.
    Senator Thurmond. Thank you.
    Mr. Marshall. Marshal Nancy McGillivray from the District 
of Massachusetts.
    Senator Thurmond. Thank you.
    Mr. Marshall. Marshal Dan Byrne from the Eastern District 
of New York.
    Senator Thurmond. Thank you.
    Mr. Marshall. And the Acting U.S. Marshal for the Eastern 
District of Virginia, John Clark. Thank you very much, Mr. 
Chairman.
    Senator Thurmond. Thank you. I see you had one lady there. 
Please stand up. Have you found being a lady handicaps you in 
your work?
    Marshal McGillivray. No, sir, I do not. I have been with 
the Marshals Service for 20 years and managed to break through 
most of the handicaps.
    Senator Thurmond. So you can stick it to them just like the 
men can?
    Marshal McGillivray. Absolutely.
    Senator Thurmond. Congratulations to you, and best wishes.
    Marshal McGillivray. Thank you, sir.
    Senator Thurmond. On our third panel, we are fortunate to 
have four witnesses with extensive experience in law 
enforcement and fugitive apprehension and operations. I am 
confident the testimony we will hear from the next four 
witnesses will give the subcommittee valuable insight into the 
extent of the fugitive problem in the United States today, the 
challenges that law enforcement agencies face in trying to 
address future problems, and how we can try to help law 
enforcement agencies in their efforts.
    This panel consists of Marshal Israel Brooks, the U.S. 
Marshal for the District of South Carolina; Commissioner Edward 
T. Norris of the Baltimore Police Department; Patrick Sullivan, 
Sheriff of Arapaho County, CO, who is representing the National 
Sheriffs Association today; and Detective Lieutenant Kevin 
Horton of the Massachusetts State Police Fugitive Unit, who is 
representing the National Association of Fugitive 
Investigators.
    Gentlemen, we welcome you and appreciate your appearing 
here today and look forward to your testimony. I ask that each 
of you please limit your opening statement to no more than 5 
minutes and we will place your written statement in the record, 
without objection, in full.
    We will start with Marshal Brooks and proceed down the 
line.

 PANEL CONSISTING OF ISRAEL BROOKS, U.S. MARSHAL, DISTRICT OF 
 SOUTH CAROLINA, COLUMBIA, SC; EDWARD T. NORRIS, COMMISSIONER, 
 BALTIMORE POLICE DEPARTMENT, BALTIMORE, MD; PATRICK SULLIVAN, 
SHERIFF, ARAPAHO COUNTY, CO, REPRESENTING THE NATIONAL SHERIFFS 
  ASSOCIATION, ALEXANDRIA, VA; AND DETECTIVE LIEUTENANT KEVIN 
HORTON, MASSACHUSETTS STATE POLICE FUGITIVE UNIT, REPRESENTING 
THE NATIONAL ASSOCIATION OF FUGITIVE INVESTIGATORS, FRAMINGHAM, 
                               MA

                   STATEMENT OF ISRAEL BROOKS

    Mr. Brooks. Thank you, Mr. Chairman. As U.S. Marshal for 
the District of South Carolina, I appreciate the invitation to 
speak in support of the multi-agency task forces.
    The District of South Carolina is recognized as the home of 
Operation Intercept. This is the first U.S. Marshals Service 
sponsored multi-agency task force. The task force has been 
responsible for the arrest of approximately 7,000 fugitives 
since its inception in 1986. In South Carolina, apprehended 
fugitives are certainly setting a precedent. Today, I have an 
opportunity to highlight the crusade and the teamwork that 
solidifies the cooperation between the local, State, and 
Federal law enforcement agencies when bringing fugitives to 
justice.
    In order to discuss how this is accomplished, I have 
identified three of the primary advantages of running a multi-
agency task force. First, the cost effectiveness of 
consolidating resources. Second, the value of case consistency. 
And finally, our most important goal is reducing warrant 
backlogs and prompt fugitive apprehension, eliminating the 
threat to our communities.
    As a U.S. Marshal in South Carolina, I acknowledge the fact 
that our arrest statistics would not have been achieved without 
the ongoing support from State and local law enforcement 
agencies. With the level of assistance they provide, I welcome 
the opportunity to special deputize over 100 local and State 
law enforcement officers from 46 counties annually. That means 
that we blanket the State of South Carolina with local and 
State agents to help us on our task force, and we receive 
additional administrative support to our task force from the 
South Carolina National Guard. At a time when we are faced with 
rising costs and limited budgets, the consolidation of 
manpower, equipment, and technology is critical for State, 
local, and Federal law enforcement agencies.
    One of the most prominent themes for the 1990's was, how 
can we get more done with less? Well, South Carolina has been 
successful in accomplishing this by consolidating our law 
enforcement resources through the development of task forces. 
There are so many benefits, Mr. Chairman, achieved in combining 
the agencies to work in investigation.
    It is necessary because the effective use of manpower that 
is solely concentrated on apprehending fugitives is important. 
Networking of information and research is very important. 
Sharing of administrative and technical support units instead 
of duplicating the recurring costs of these teams among these 
agencies is very important. Streamlining the purchase of 
equipment, allowing funds to purchase higher-quality and 
advanced technology instead of duplicating equipment is very 
important.
    The talents and resources brought by both State and Federal 
agencies are invaluable. The local officers bring a wealth of 
community knowledge, local informants, and tactical support 
units which can be developed immediately upon request.
    State and local officers tend to be more familiar with the 
area, pinpointing where fugitives may be hiding out and can 
provide valuable information on the family, on the location and 
other areas of concern. The extent of their manpower resource 
strengthens the investigation.
    The Federal agencies lend broader authority, nationwide 
contacts, highly developed labs, computer database, mobile 
command centers, field radios, and other equipment. This level 
of assistance can prove critical to the smaller local agencies 
that do not have adequate budgets, broader authority, or 
interstate connections to apprehend fugitives when they have 
left the area without the lengthy delay of extradition 
procedures.
    I will stress to you, Mr. Chairman, that this combination 
is powerful and it is necessary for quick apprehension of 
fugitives.
    The initial steps in fugitive investigations are critical, 
but just as important is the constant perseverance. This is 
best accomplished by ensuring case consistency. Task force 
operations lend themselves to this element because they work in 
concert with each other.
    For example, when a task force officer adequately documents 
investigate efforts, other task force personnel, State, local, 
or Federal, they can continue the case in his or her absence. 
Simultaneously, administrative and technical support units are 
able to provide analysis, research, and coordinate 
investigative updates. There are no limitations, and by 
combining resources and sustaining case consistency, law 
enforcement personnel are able to achieve their most compelling 
purpose, prompt apprehension of fugitives.
    In my opinion, the reduction in warrant backlog can be 
obtained faster when a task force is in place. We have proven 
this in the District of South Carolina over the past few years. 
For example, in 1996, the U.S. Marshals Service coordinated 
with the State and local law enforcement agencies in the 
northern part of the State and performed a sting operation to 
lure fugitives to justice. It only took a short time to prepare 
because our task force was already operational in that 
location. In just one weekend, our sting operation effected the 
arrest of 100 wanted individuals in five counties.
    Overseeing one of the Marshals Service's oldest sponsored 
multi-agency task forces, it is my firm desire to offer support 
here today for providing our criminal investigators with 
administrative subpoena authority. Time is critical, and this 
would provide us with the investigative tool necessary for 
quick apprehension.
    Mr. Chairman, I cannot emphasize enough that the support 
and participation in South Carolina task forces have always far 
surpassed anyone's expectations. The importance of combining 
resources and efforts to recognize the end responsibilities to 
reduce State, local, and Federal criminals on our streets.
    Mr. Chairman, I would ask that each of you take a moment 
and reflect on my comments here today, and before I conclude, I 
would ask, are there any examples or questions that you would 
like for me to address?
    Senator Thurmond. Thank you.
    [The prepared statement of Mr. Brooks follows:]

                Prepared Statement of Israel Brooks, Jr.

    Mr. Chairman and Members of the Subcommittee, as the United States 
Marshal for the District of South Carolina, I appreciate the invitation 
to speak in support of multi-agency task forces. The District of South 
Carolina is recognized as the home of OPERATION INTERCEPT, the first 
United States Marshals Service (USMS) sponsored multi-agency task 
force.
    The OPERATION INTERCEPT task force has been responsible for the 
arrest of approximately 7,000 fugitives since its inception in 1986. In 
South Carolina, apprehending fugitives is certainly setting a 
precedent.
    Today I have the opportunity to highlight the crusade and team work 
that solidifies cooperation between local, state and federal law 
enforcement agencies when bringing fugitives to justice.
    In order to discuss how this is accomplished, I have identified 
three of the primary advantages of running a multi-agency task force: 
First, the cost effectiveness of consolidating resources; second, the 
value of case consistency; and finally, and our most important goal: 
Reducing the warrant backlog and accomplishing prompt fugitive 
apprehension, resulting in eliminating the threat to our communities.

                        CONSOLIDATING RESOURCES

    As the U.S. Marshal in South Carolina, I acknowledge the fact that 
our arrest statistics would not have been achieved without the ongoing 
support from state and local law enforcement agencies. With the level 
of assistance they provide, I welcome the opportunity to special 
deputize over one hundred local and state law enforcement officers 
annually, from 46 counties. We receive additional administrative 
support to our task force from the South Carolina National Guard.
    The consolidation of manpower, equipment and technology is critical 
for state, local and federal law enforcement agencies. One of the most 
prominent themes for the 90's was ``how can we get more done with 
less.'' Well, South Carolina has been successful in accomplishing this 
by consolidating our law enforcement resources through the development 
of task forces.
    There are so many benefits achieved in combining the agencies to 
work an investigation. For example: The effective use of manpower that 
is solely concentrated on apprehending fugitives; networking of 
information and research; sharing of administrative and technical 
support units instead of duplicating the recurring costs for these 
teams among the agencies; and streamlining the purchase of equipment, 
by allowing funds to purchase higher quality and advanced technology 
instead of duplicating equipment.
    The talents and resources brought by both state and federal are 
invaluable. Local officers bring a wealth of community knowledge, local 
informants and tactical support units which can be deployed immediately 
upon request. State officers tend to be more familiar with the area 
where a fugitive may be hiding out and can provide information on the 
family, location and other areas of concern. The extent of their 
manpower strengthens the investigation.
    The federal agencies lend broader authority, nationwide contacts, 
highly developed labs, computer databases, mobile command centers, 
field radios and other equipment. This level of assistance can prove 
critical to the smaller local agencies that do not have the budgets, 
authority or interstate connections to apprehend fugitives when they 
have left the area, without the lengthy delay of extradition 
procedures.
    I would like to stress to you Mr. Chairman and to the Subcommittee 
Members, that this combination is powerful and necessary for quick 
apprehension of fugitives.

                            CASE CONSISTENCY

    The initial steps in fugitive investigations are critical, but just 
as important is the constant perseverance. This is best accomplished by 
ensuring case consistency. Task Force operations lend themselves to 
this element because they work in concert. For example, when a task 
force officer adequately documents investigative efforts, any other 
task force personnel can continue the case in his/her absence, whether 
state, local or federal.
    Simultaneously, administrative and technical support units are 
available to provide analysis, research and coordinate investigative 
updates.
    Also available to task force participants in assistance from 
jurisdictions nationwide. Leads are tracked and monitored to guarantee 
an immediate response. There are no limitations, and by combining 
resources and sustaining case consistency, law enforcement personnel 
are able to achieve their most compelling purpose: Prompt apprehension 
of fugitives.
   prompt apprehension of fugitives and reducing the warrant backlog
    In my opinion, a reduction in the warrant backlog can be attained 
faster when a task force is in place. We have proven this in the 
District of South Carolina over the past few years. For example, in 
1996 the USMS coordinated with the state participants in the northern 
part of that state and performed a sting operation to bring fugitives 
to justice. It only took a short time to prepare because our task force 
was already operational in that location. In just one weekend, our 
sting operation effected the arrest of 100 wanted individuals in 5 
counties.
    Overseeing one of the Marshals Service's oldest sponsored multi-
agency task forces, it is my firm desire to offer support here today 
for providing our criminal investigators with administrative subpoena 
authority. In fugitive investigations, time is critical . . . and the 
administrative subpoena authority would provide us with the 
investigative tools necessary for quick apprehension.
    I cannot emphasize enough that the support and participation in 
South Carolina Task Forces have always far surpassed anyone's 
expectations. The importance of combining resources and efforts will 
provide endless opportunities to reduce the number of state, local and 
federal criminals on our streets.
    Mr. Chairman and members of the subcommittee, thank you for your 
continued support of law enforcement and thank you for the opportunity 
to appear before you today. I would ask that each of you take a moment 
and reflect on my comments, and I would be pleased to respond to any 
questions you may have.

    Senator Thurmond. Mr. Norris.

                 STATEMENT OF EDWARD T. NORRIS

    Mr. Norris. Mr. Chairman, on behalf of the men and women of 
the Baltimore Police Department, I want to thank you for the 
opportunity to offer testimony in support of this bill.
    From New York to New Orleans, from Boston to Newark, 
successful police departments understand one fundamental truth. 
The crime reduction in American cities is dependent and 
directly linked to the apprehension of fugitives. The 
systematic tracking and capture of known violent criminals is 
the single most effective crime fighting strategy in modern law 
enforcement.
    I urge the honorable members of the Subcommittee on 
Criminal Justice Oversight to support and appropriate the 
necessary resources to assist Federal law enforcement in their 
efforts to bring modern outlaws to justice. I thank Senators 
Strom Thurmond and Joseph Biden, Jr., for having the insight to 
draft such important legislation.
    The threat that fugitives pose to law-abiding citizens 
cannot be overstated. In Baltimore County, MD, wanted criminals 
killed Sergeant Bruce Prothero in the line of duty attempting 
to thwart a robbery. In New York City, fugitive John Taylor 
walked into a Wendy's hamburger restaurant and brazenly killed 
six workers and patrons.
    Wanted offenders who were deft at avoiding detection and 
thrive in the cracks of our criminal justice system perpetrate 
the carnage that haunts our urban areas. The implementation of 
a forceful fugitive apprehension program as proposed by the 
U.S. Marshals Service will seal these cracks and end this 
unnecessary violence.
    The criminal community in any city is a close knit, small, 
and identifiable group. Career criminals do not stop offending 
because they have a warrant out for their arrest. Fugitives are 
a bold and lethal breed, unfazed by the flaccid threat that a 
warrant alone represents.
    As a deputy inspector with the New York City Police 
Department, I was tasked with putting teeth into the warrant 
apprehension task force. The architects of New York's 
successful crime fighting effort realized that by tracking and 
apprehending fugitives, we could reduce crime by taking repeat 
offenders off the street. Armed with the probable cause a 
warrant provides law enforcement and the support of the NYPD 
brass, I mounted an aggressive assault on the criminal 
community that held our city hostage for decades.
    The results are staggering to outside observers and 
devastating to the criminal community. Our warrant 
apprehensions increased 104 percent, from 6,000 to over 12,000 
in 1 year, and the murder rate plummeted. Robberies, rapes, 
aggravated assaults all decreased and New York became the 
safest big city in America.
    Fugitive capture is the backbone of the successful crime 
fighting strategies of not only New York but also Boston, 
Newark, New Orleans, and Philadelphia. However, the 
jurisdictional and fiscal limitations that plague local law 
enforcement severely hinder the complete eradication of the 
fugitive community.
    As Commissioner of the Baltimore Police Department, I am 
faced with the daunting task of reducing crime in one of the 
most violent cities in America. Baltimore recorded 310 murders 
last year, the second highest per capita rate in the country of 
the 30 largest cities. This tremendously high homicide toll 
exists in light of formerly ineffective fugitive apprehension 
strategy.
    Upon arriving in Baltimore, I discovered our warrant unit 
consisted of five detectives and a sergeant charged with 
serving over 54,000 warrants. In 1999, as of June 16, this six-
person unit served 10 murder warrants and 1,062 fugitive 
warrants.
    I immediately increased the warrant task force to 36 
members. Operating under a philosophy that the speedy 
apprehension of wanted offenders will prevent incidents of 
mayhem and violence, this strengthened unit is showing signs of 
success. As of June 16, 2000, total warrant arrests have 
increased by 6 percent. However, most significantly, by 
focusing on our most violent criminals, there has been a 500 
percent increase in the service of murder warrants by this 
unit. Sixty this year as opposed to 10 last year have been put 
in handcuffs. Additionally, there is a 56 percent increase in 
shooting warrants, a 120 percent increase in attempted murder 
warrants, 83 percent first degree assault warrants, and a 280 
percent increase in the service of warrants involving handgun-
related offenses. Overall, our clearance rate involving violent 
offenders has increased 105 percent.
    I am confident with the continued success of this unit, the 
Baltimore Police will achieve its first year under 300 murders 
in a decade. With the increased assistance of the U.S. Marshals 
Service, our success is inevitable.
    Effective warrant strategies remove fugitives from our 
neighborhoods, thus increasing public safety. Furthermore, law 
enforcement agencies are able to debrief career criminals upon 
their apprehension, which enables crucial intelligence to be 
ascertained and utilized to solve other crimes. Finally, many 
fugitives will be located in correctional facilities. Upon 
location, a detainer is placed to ensure the criminal will not 
be released without facing a demanding jurisdiction's justice. 
Warrant service not only removes fugitives from our streets, 
but it keeps criminals behind bars.
    Throughout the last decade, local law enforcement agencies 
across the country have demonstrated that by implementing sound 
policing strategies, crime can be drastically reduced. Police 
officers in cities like New York, New Orleans, Philadelphia, 
Boston, and Newark are once again proud to serve, proud to wear 
the department's badge, proud because they know they can 
succeed. Many lives in our urban areas have been saved by the 
efforts of these men and women who choose to work in America's 
most dangerous profession. This success, however, is not 
enough. It is not complete and it is not enjoyed by all urban 
areas.
    As a police officer who knows the importance of tracking 
down fugitives, I urge this committee to assist cities like 
Baltimore, Detroit, and Washington, DC, by supporting this 
fundamentally sound program offered by the U.S. Marshals 
Service. This program will apprehend violent criminals who 
flout the laws of our criminal justice system. As we move 
forward in our strategy to reduce index crime through fugitive 
apprehension and warrant service, we must keep in mind that a 
number of these individuals move about freely with no fear of 
being caught, no apprehensions concerning the commission of 
future crimes. Our combined efforts will gain the support and 
assistance of our communities and increase the fear and respect 
of our wanted fugitives towards our ability to find and bring 
them to justice.
    As a police commissioner of a city that is being bludgeoned 
by fugitives who brazenly reoffend and brutally inflict the 
violence that drives our murder rate, I urge this committee to 
attend to the assistance necessary to capture fugitives, no 
matter where they seek refuge.
    Finally, on behalf of the 310 citizens murdered last year 
in Baltimore, on behalf of Sergeant Bruce Prothero who was 
killed in the line of duty by a fugitive, on behalf of innocent 
citizens slain by wanted felons, I urge this body to assist in 
ending this chronic threat to public safety that is posed by 
fugitives.
    Senator Thurmond. Thank you.
    [The prepared statement of Mr. Norris follows:]

                 Prepared Statement of Edward T. Norris

                              INTRODUCTION

    From New York to New Orleans, from Boston to Newark, successful 
Police Departments understand one fundamental truth: Crime reduction in 
American cities is dependent and directly linked to the apprehension of 
fugitives. The systematic tracking and capture of known violent 
criminals is the single most effective crime fighting strategy in 
modern law enforcement. I urge the honorable members of this 
Subcommittee on Criminal Justice Oversight of the Senate Judiciary 
Committee to support and appropriate the necessary resources to assist 
federal law enforcement in their efforts to bring modern outlaws to 
justice. I thank Senators Strom Thurmond and Joseph R. Biden, Jr. for 
having the insight to draft such important legislation.
    The threat that fugitives post to law-abiding citizens cannot be 
overstated. In Baltimore County, Maryland wanted criminals killed 
Sergeant Bruce Prothero in the line of duty attempting to thwart a 
robbery. In New York City, fugitive John Taylor walked into a Wendy's 
Hamburger Restaurant and brazenly killed six workers and patrons. 
Wanted offenders who are deft at avoiding detection and thrive in the 
cracks of our criminal justice system perpetrate the carnage that 
haunts our urban areas. The implementation of a forceful fugitive 
apprehension program as proposed by the United States Marshall Service 
will seal these cracks and end this unnecessary violence.

             THE IMPACT OF EFFECTIVE FUGITIVE APPREHENSION

    The criminal community in any city is a close knit, small and 
identifiable group. Career criminals do not stop offending because they 
have a warrant out for their arrest. Fugitives are a bold and lethal 
breed, unfazed by the flaccid threat that a warrant alone represents. 
As a Deputy Inspector with the New York Police Department, I was tasked 
with putting teeth in the paper tiger of the Warrant Apprehension Task 
Force. The architects of New York's successful crime-fighting effort 
realized that by tracking and apprehending fugitives, we would reduce 
crime by taking repeat offenders off the street. Armed with the 
probable cause a warrant provides law enforcement and the support of 
NYPD brass, I mounted an aggressive assault on the criminal community 
that had held our city hostage for decades.
    The results were staggering to outside observers and devastating to 
the criminal community. As warrant apprehension increased 104 percent, 
the murder rate plummeted, robberies, rapes, and aggravated assaults 
decreased and New York became the safest big city in America. Fugitive 
capture is the backbone of the successful crime fighting strategies of 
not only New York, but also Boston, Newark, New Orleans, and 
Philadelphia. However, the jurisdiction and fiscal limitations that 
plague local law enforcement severely hinder the complete eradication 
of the fugitive community.

               BALTIMORE'S FUGITIVE APPREHENSION EFFORTS

    As Commissioner of the Baltimore Police Department, I am faced with 
the daunting task of reducing crime in arguably the most violent city 
in America. Baltimore recorded 310 murders last year, the second 
highest per capita rate in the country. This tremendously high homicide 
toll exists in light of an ineffective fugitive apprehension strategy. 
Upon arriving in Baltimore, I discovered our warrant unit consisted of 
five detectives and a sergeant charged with serving over 54,000 
warrants. In 1999 as of June 16, this six-person unit served 10 murder 
warrants and 1,062 fugitive warrant.
    I immediately increased the warrant task force to 36 members. 
Operating under the philosophy that the speedy apprehension of wanted 
offenders will prevent incidents ofviolence and mayhem, this 
strengthened unit is showing signs of success. As of June 16, 2000, 
total warrant arrest have increased 5.7 percent (1062 in 1999; 1126 in 
2000). Most significantly, by focusing on our most violent criminals, 
there has been a 500 percent increase in the service of murder warrants 
by the unit (10 in 1999; 60 in 2000). Additionally There is a 56.8 
percent increase in shooting warrants served (44 in 1999; 69 in 2000), 
a 120 percent increase in attempted murder warrants served (10 in 1999; 
22 in 2000), a 8.1 percent increase in the service of first degree 
assault warrants (59 in 1999; 108 in 2000), and a 280 percent increase 
in the service of warrants involving handgun related offenses (5 in 
199; 19 in 2000). Overall, a clearance rate involving violent offenders 
has increased 104.9 percent (162 in 1999; 332 in 2000). I am confident 
with the continued success of this unit, Baltimore will achieve its 
first year under 300 murders in a decade. With the increased assistance 
of the United Marshall's Office, our success is inevitable.
    Effective warrant strategies remove fugitives from our 
neighborhoods thus increasing public safety. Furthermore, law 
enforcement agencies are able to de-brief career criminals upon their 
apprehension, which enables crucial intelligence to be ascertained and 
utilized to solve other crimes. Finally, many fugitives will be located 
in correctional facilities. Upon location, a detainer may be placed to 
insure that the criminal will not be released without facing a 
demanding jurisdiction's justice. Warrant service not only removes 
fugitives from our streets but it keeps criminals behind bars.

                               CONCLUSION

    Throughout the last decade, local law enforcement agencies across 
our country have demonstrated that by implementing sound policing 
strategies, crime can be drastically reduced. Police officers in cities 
like New York, New Orleans, Philadelphia, Boston, and Newark are once 
again proud to serve, proud to wear their department's badge, proud 
because they know they can succeed. Many lives in our urban areas have 
been saved by the efforts of the men and women who choose to work in 
America's most dangerous profession. This success however is not 
enough, it is not complete, and it is not enjoyed by all urban areas.
    As a Police Officer who knows the importance of tracking down 
fugitives, I urge this committee to assist cities like Baltimore, 
Detroit and Washington, DC, by supporting the fundamentally sound 
program offered by the United States Marshall's service. This program 
will apprehend violent criminals who flaunt the laws of our criminal 
justice system. As we move forward in our strategy to reduce index 
crime through fugitive apprehension and warrant service, we must keep 
in mind that a number of these individuals move about freely with no 
fear of being caught and no apprehensions concerning the commission of 
future crimes. Our combined efforts will gain the support and 
assistance of our communities and increase the fear and respect of our 
wanted fugitives towards our ability to find and bring them to justice.
    As the Police Commissioner of a city that is being bludgeoned by 
fugitives who brazenly re-offend and brutally inflict the violence that 
drives our murder rate, I urge this committee to tender the assistance 
necessary to capture fugitives no matter where they seek refuge. 
Finally, on behalf of the 310 citizens murdered last year in Baltimore, 
on behalf of Sergeant Bruce Prothero who was killed in the line of duty 
by a fugitive, on behalf of the innocent citizens slain by wanted 
felons, I urge this body to assist in ending the chronic threat to 
public safety posed by fugitives.
    IN TESTIMONY WHEREOF, I have hereunto set my hand this 21st day of 
June, in the year Two Thousand.
                            Edward T. Norris, Commissioner,
                                       Baltimore Police Department.

    Senator Thurmond. Sheriff Sullivan. I want to ask you all 
to limit your statements to five minutes and that will give us 
a chance for questions. Thank you.

                 STATEMENT OF PATRICK SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman, for this important 
opportunity to speak to you today and testify before this 
distinguished committee about the U.S. Marshals Service and 
about the larger issue of fugitive felons. This is not my first 
occasion to testify before this committee. I am happy to be 
with you again today and discuss what the sheriffs view as an 
extremely important issue.
    Mr. Chairman, as you know, NSA concluded its annual 
conference and exhibition yesterday. In fact, I left that 
conference early to be here to testify before this committee. 
We met in Kansas City, MO, for the past week, and aside from 
renewing old friendships and making new acquaintances, we 
addressed many of the issues and concerns of the office of 
sheriff. In fact, we spent a significant amount of time talking 
about fugitive felons and the backlog of warrants that paralyze 
law enforcement.
    Aside from NSA's business, I am especially pleased to bring 
to you in the committee the greetings from all the Nation's 
sheriffs, and, Mr. Chairman, Sheriff Johnny Mack Brown sends 
his warmest regards and wishes you all the best.
    I am Patrick Sullivan. I am the Sheriff of Arapaho County, 
CO, a county of about a half a million and suburban to Denver. 
I have been Sheriff for 17 years. I am post certified and work 
closely with all the sheriffs in Colorado to serve warrants and 
apprehend dangerous fugitive felons. I am also a member of the 
National Sheriffs Association's Executive Committee and Board 
of Directors. Additionally, I am the Chairman of the NSA's 
Congressional Affairs Committee.
    I am here today to testify before this distinguished panel 
on the issue of fugitive felons. As you know, fugitive felons 
present a significant challenge for law enforcement. Every day, 
my warrant squad tracks fugitives and makes arrests to ensure 
that criminals are brought to justice.
    Unfortunately, Mr. Chairman, the fugitive problem taps 
significant resources and manpower. After all, serving warrants 
is labor intensive. You cannot send the bad guy an e-mail or 
expect him to turn himself in to the booking facility, and you 
cannot send him a notice by registered mail and expect him to 
show up for court. You have to track them down and physically 
arrest them. You have to put on the handcuffs and transport 
them to jail. That process takes people, intensive 
investigations, and persistence. It is a rare occurrence to 
find fugitives on the first try.
    The fact of the matter is that fugitives are fleeing from 
justice and that makes them dangerous. To combat this danger, 
the law enforcement response to fugitive felons manifests 
itself in many ways and the investigative effort drains 
valuable resources. The challenge is that while attracting 
fugitives and serving warrants, both vital functions of the 
office of sheriff, we must also respond to a myriad of calls 
for service. We must still provide patrol. We must still 
investigate other crimes and operate the county jail. We must 
do these other things that our constituents have elected us 
for.
    Mr. Chairman, NSA strongly supports this legislation. We 
feel that the U.S. Marshals Service is the proper agency to 
help the local sheriff find fugitive felons. They have nearly 
2,500 deputies working but they need more, and that is where 
Congress can help. By authorizing these task forces as 
established in this legislation, deputy marshals will augment 
and support the missions of the deputy sheriffs. Together, we 
will be able to make significant progress in bringing fugitive 
felons to justice.
    How do I know that the U.S. Marshals Service is the right 
agency to handle this project? Simply, 12 former sheriffs are 
now U.S. Marshals. Eight of the U.S. Marshals are formerly 
deputy sheriffs. Their law enforcement career contributed to 
their understanding of the mission of the sheriff in 
relationship to the U.S. Marshal. That means 20 out of the 94 
marshals have direct experience in working with sheriffs and we 
can be sure that the job will be done right.
    The U.S. Marshals Service needs a strong commitment from 
Congress to succeed. Enacting this legislation will help the 
U.S. Marshals Service, but the real battle is for adequate 
funding. That is why I am hopeful that we can reauthorize the 
Violent Crime and Control Reduction Trust Fund and we can find 
other sources of funding to back up this legislation.
    At nearly 2,500 deputies, the U.S. Marshals Service is 
still understaffed, in my opinion. I would suggest that the 
committee strongly consider increasing the number of Deputy 
U.S. Marshals and giving them the tools to be effective Federal 
law enforcement officers. The U.S. Marshals Service is the 
Nation's oldest and largest law enforcement agency.
    Mr. Chairman, we also support Senator Dorgan's bill that he 
discussed earlier for setting standards for the private 
transport of fugitives.
    I am now available for questions. Thank you.
    Senator Thurmond. Thank you.
    [The prepared statement of Mr. Sullivan follows:]

                 Prepared Statement of Patrick Sullivan

    Thank you, Mr. Chairman, for this important opportunity to speak to 
you today and testify before this distinguished committee about the 
United States Marshals Service and about the larger issue of fugitive 
felons. This is not my first occasion to testify before your committee 
and I am happy to be with you again today to discuss what the sheriffs 
view as an extremely important issue.
    Mr. Chairman, as you know, NSA concluded our Annual Conference and 
Exhibition yesterday. In fact, I left the conference early so that NSA 
could be heard on what we feel is an important topic. We met in Kansas 
City, Missouri for the past week and aside from renewing old 
friendships and making new acquaintances, we addressed many of the 
issues and concerns of the Office of Sheriff. In fact, we spent 
significant time talking about fugitive felons and the backlog of 
warrants that paralyzes law enforcement.
    Aside from the business of NSA, I am especially pleased to bring to 
you and the Committee the greetings of all of our Nation's sheriffs. 
And, Mr. Chairman, Sheriff Johnny Mack Brown sends his warmest regards 
and wishes you all the best.
    I am Patrick Sullivan and I am the Sheriff of Arapahoe County, 
Colorado, a community of about a half million and suburban Denver 
county. I have been sheriff for the past 17 years. I am POST certified 
and work closely with all of the sheriffs in Colorado to serve warrants 
and apprehend dangerous fugitive felons. I am also a member of the 
National Sheriffs' Association where I sit on the Executive Committee 
and Board of Directors. Additionally, I am the Chairman of NSA's 
Congressional Affairs Committee, our largest.
    I am here today to testify before this distinguished panel on the 
issue of fugitive felons. As you know, fugitive felons present a 
significant challenge for law enforcement. Every day, my warrant squad 
tracks fugitives and makes arrests to ensure that criminals are brought 
to justice. Unfortunately, Mr. Chairman, the fugitive problem taps 
significant resources and manpower. After all, serving warrants is 
labor intensive. You can't send the bad guy an email and expect him to 
turn himself in to the booking facility. You can't send them a notice 
by registered mail and expect them to keep their court date. You have 
to track them down, and physically arrest them. You have to put the 
handcuffs on and transport them to jail. And that process takes people, 
intensive investigations and persistence. It is a rare occurrence to 
find the fugitive on the first try.
    The fact of the matter is that fugitives are fleeing from justice 
and that makes them dangerous. To combat this danger, the law 
enforcement response to fugitive felons manifests itself in many ways 
and the investigative effort drains valuable resources. The challenge 
is that, while tracking fugitives and serving warrants, both vital 
functions of the sheriffs, we must also respond to the myriad of calls 
for serve, we must still provide patrol, we must still investigate 
other crimes, and we must do those things our constituents elected us 
to do.
    Mr. Chairman, NSA strongly supports this legislation. We feel that 
the U.S. Marshals Service is the proper agency to help the local 
sheriff find fugitive felons. They have nearly 2500 deputies working, 
but they need more. And that is where Congress can help. By authorizing 
these task forces as established in the legislation, deputy marshals 
will augment and support the missions of deputy sheriffs. Together, we 
will be able to make significant progress in bringing fugitive felons 
to justice. How do I know that the USMS is the right agency to handle 
this project? Simple, 12 former sheriffs are now U.S. marshals and 
eight other Marshals were deputy sheriffs during their law enforcement 
career. That means 20 of the 94 Marshals have direct experience with 
sheriffs and their unique needs. We can be sure that the job will be 
done right.
    The U.S. Marshals Service needs a strong commitment from Congress 
to succeed. Enacting this legislation will help the USMS, but the real 
battle is for adequate funding. That is why I am hopeful that we can 
reauthorize the Violent Crime Control Reduction Trust fund, and we can 
find other sources of funding to back up this legislation. At nearly 
2500 deputies, the USMS is still under staffed, in my opinion. I would 
suggest that the committee strongly consider increasing the number of 
Deputy U.S. Marshals and give them the tools to be effective federal 
law enforcement officers. The USMS is the nation's oldest law 
enforcement agency. It is only fitting that they have the resources and 
manpower to carry out their mission and supplement the ability of state 
and local law enforcement officers. They do an excellent job with 
limited resources, but they have increasingly diverse missions and need 
more support. I know the sheriffs would support and benefit from an 
enhanced Marshals Service.
    To give the Committee an example of the cooperation the bill 
espouses, Deputy U.S. Marshals worked with my investigators on a case 
just last month. Crack cocaine dealer, Edward Hickey, was wanted by my 
office, the Chicago PD, Aurora PD and Denver PD. This dealer was so bad 
that he even recruited kids to peddle his drugs and hold the narcotics 
while he completed the sale. A fugitive from justice, we have him 
linked to the sale of a minimum of 25 kilos of crack. Working together, 
with intense research and sound investigative techniques, we 
apprehended Hickey last month and he has been extradited to Illinois 
where he awaits his day in court. This is but one example of how we 
work hand in glove with the U.S. Marshals Service. We need this 
legislation and we need to address the chronic problem of fugitive 
felons.
    In closing, Mr. Chairman, the National Sheriffs' Association 
strongly support this legislation and sheriffs across the nation would 
be among the first to utilize the fugitive task forces created by the 
bill. We look forward to working with you and the Committee to enact 
this measure and I am prepared to answer any questions the Committee 
may have. Thank you again for the opportunity to be with you this 
afternoon.

    Senator Thurmond. Mr. Horton.

                   STATEMENT OF KEVIN HORTON

    Mr. Horton. Mr. Chairman, it is a privilege and honor to be 
here to talk about a topic I have spent 15 of my 23 years in 
the State police chasing fugitives. Being in the clean-up 
position, I am not going to try and reiterate basically what 
has been said in my report. I am going to try and sum it up as 
quick as I can.
    It does not seem in the 15 years that much has changed. To 
catch fugitives, you need to make it a priority, you need 
commitment, you need resources, and you need manpower, and that 
is why we are all here today. There is no better agency in the 
country to head up this program than the U.S. Marshals. They 
are the premiere fugitive investigators in the country.
    Last year, I recently sat in at a meeting at the State 
level, as I am sitting here today, facing the same problems we 
are talking about at the State level. What came out of that 
meeting was in the State of Massachusetts, we have over 300,000 
warrants outstanding right now. Out of those, 80,000 are felony 
warrants. Out of those, 40,000 are violent felony warrants. So 
you can imagine, after that meeting, it very quickly became a 
priority through the governor and the secretary. We then 
established a task force with the State police, the Department 
of Corrections and the local departments. Byrne grants were 
gotten very quickly and we established our own task force 
because the priority was given. The commitment was given to do 
something about warrants.
    Since the task force was established in August 1999, 
arrests have increased 127 percent and our clearance of 
warrants have increased 140 percent. Again, manpower and 
resources, Mr. Chairman.
    I can give you examples in my report, as the other board 
members have, of fugitives on the run. Fugitives kill people. I 
give an example of two police officers that were killed in 
Massachusetts by people who had warrants, a 10-year-old boy who 
was raped and murdered by an individual who had 75 warrants on 
him, a young lady whose ex-boyfriend killed her, also wanted 
for violent felonies. We can go on and on and on. A 12-year-old 
girl who was molested by a sex offender who had felony warrants 
on him.
    The problem is resources, manpower, and commitment, Mr. 
Chairman, and the marshals, without a doubt, are the people to 
handle that problem.
    The only other thing I would like to say is the most 
significant change we have had in the apprehension of fugitives 
that I have seen in my 15 years is the advent of the Welfare 
Reform Act in 1996. What this did is it opened the eyes of 
Federal and State governments that we are subsidizing 
criminals. What we did in 1997 with the first cross-match of 
the welfare records in Massachusetts against the felony 
warrants in Massachusetts and came up with 14,000 hits of 
people collecting some type of government aid who are wanted. 
We put into action Operation Welfare Sweep and we targeted 
1,900 of those which were violent felons. We arrested 563 in 30 
days. Four hundred turned themselves in and 900 were taken off 
the rolls because they have warrants.
    We then did a similar operation with New York City and we 
did a similar operation with Connecticut, which shows that the 
State governments and the Federal Government is subsidizing 
criminals. We need to get access to databases and we are trying 
to pass legislation in Massachusetts as we speak to get us at 
the Department of Revenue, Department of Employment and 
Training.
    One of the topics that is always big in this country is 
deadbeat dads. Well, deadbeat dads, and rightfully so, it has 
to be done. But deadbeat dads are now done by the Department of 
Revenue. The Department of Revenue has access to thousands and 
thousands of records throughout the country which law 
enforcement cannot legally get. So they are chasing deadbeat 
dads and have access to records. We are chasing murderers, 
rapists, and armed robbers and we cannot get the data. It is 
there.
    I thank you for your time, Mr. Chairman.
    [The prepared statement of Mr. Horton follows:]

                 Prepared Statement of Kevin M. Horton

    1. It is an honor and privilege to be able to address the 
subcommittee on such an important issue. It is an issue that I have 
dealt with for over 15 years of my 23 year career in law enforcement. 
The commitment to the apprehension of fugitives has never been a 
consistent priority with most states and local police departments. It 
has been my experience, at the State and Federal level that budgetary 
constraints often hinder the amount of resources that are dedicated to 
Fugitive Apprehension. For example, the Massachusetts State Police 
Fugitive Section, which started with five (5) officers in 1985, 
research a high of sixteen (16) officers in the early nineties and 
dropped to six (6) officers in 1996. In 1999 the Massachusetts State 
Senate Committee on Post Audit and Oversight, released a report on 
``Warranting Improvement: Reforming the Arrest Warrant Management 
System''. The report indicated that there is a backlog of more than 
300,000 outstanding arrest warrants, an amount that is growing by 5,000 
warrants per month. Almost two-thirds of the arrest warrants are 
default warrants that are issued as result of an individual failing to 
appear for court or failure to comply with court ordered sanctions. 
Apprehension on these warrants is usually a result of random encounters 
by police with wanted people during routine traffic stops. As a result 
of the subcommittee report the Governor of Massachusetts, Paul 
Cellucci, through the Secretary of Public Safety, Jane Perlov made 
Fugitive Apprehension in Massachusetts a major priority and created the 
State Police, Violent Fugitive Task Force. The Secretary also acquired 
a ``Byrne'' grant to administer the Task force. Of the 300,000 warrants 
currently in the system, the Task Force concentrates on the most 
violent wanted individuals which comprises approximately 35,000 
warrants. Our top priority is to identify and arrest the most violent 
criminals. These individuals by virtue of their life-styles are career 
criminals and responsible for committing multiple crimes. It is our 
experience that their arrest and incarceration significantly reduce the 
crime rate within the state. Several studies have shown that 
approximately 10 percent of criminals are responsible for the majority 
of crimes committed and that getting these people off of the street has 
a strong crime-reduction impact. Also added to the Task Force 
priorities were individuals with multiple arrest warrants. The Task 
force now concentrates on individuals with ten or more warrants. 
Several cases have brought to light the need for more enforcement in 
this area. Here are some examples of people with outstanding warrants 
that continue to commit serious crimes while they were at large:
          In February 1994, Boston Police Officer Berisford Anderson 
        was shot and killed by Dalton Simpson, who was wanted on 
        default warrants at the time of the shooting. Simpson was 
        wanted for Assault w/intent to Murder, Possession of Firearm 
        (2cts.), and Discharging a Firearm.
          In October 1997, ten year old Jeffrey Curley of Cambridge was 
        brutally murdered by Charles Jaynes, who was wanted on 75 
        outstanding arrest warrants from 18 District Courts at the time 
        of the murder.
          In October 1997, Annie Glenn was shot and killed in front of 
        her three children by Richard Kenney, an ex-boyfriend who was 
        wanted on outstanding warrants for possession of cocaine and 
        receiving stolen property.
          In November 1997, New Jersey Police Sergeant Patrick King was 
        shot and killed by Deon Baily, who was wanted for assault & 
        battery w/dangerous weapon, assault & battery, and violating 
        probation.
          In June 1998, Gilberto Sanchez, a convicted sex offender, 
        sexually molested a 12 year old girl after climbing through her 
        bedroom window. Sanchez was wanted on six outstanding warrants 
        for crimes such as assault & battery, violating a restraining 
        order, and defaulting on drug charges.
    2. The problems with warrant apprehension have not changed much in 
the fifteen years I have been in the business. In order to effectively 
deal with warrant management, a commitment to deal with the problem has 
to be made. This commitment has to be maintained over time because 
warrants will never cease to exist; however they can be effectively 
managed to lessen the negative impact on society. It is a long term 
commitment to this process that is required. Once warrant apprehension 
is made a priority then you need RESOURCES AND MANPOWER! Since the 
advent of the Task Force in Massachusetts in August of 1999, our 
arrests have gone up 127 percent and our clearance of warrants has gone 
up 140 percent. The number one resource is always money, but just as 
important is the networking of agencies like the United States Marshals 
Service, a national leader in Fugitive investigations. Fugitive 
apprehension training and techniques used by the Massachusetts State 
Police Fugitive Section were developed and taught by USMS. 
Administrative subpoena authority granted to the USMS, as is currently 
available to the FBI and DEA, would aid all law enforcement in the 
pursuit of fugitives and would make available additional manpower to 
devote to apprehensions.
    3. Without a doubt, the most significant change, in the way we 
apprehend fugitives has been the ``Welfare Reform Act of 1996.'' This 
legislation finally brought to light the fact that State and Federal 
governments were subsidizing wanted criminals. In 1997 the first 
computerized ``Cross-Match'' of databases in Massachusetts of our 
felony warrants against the state welfare rolls produced 14,000 matches 
of wanted people collecting some sort of government aid. Of the 14,000 
individuals wanted on felony warrants, approximately 1900 were wanted 
for violent crimes. In August of 1997 Operation ``Welfare Sweep'' was 
conducted targeting the 1900 individuals wanted for violent crimes, 
using the information supplied by the state welfare department. The 
operation lasted 30 days resulting in the arrest of 563 people. Over 
400 people turned themselves in to the courts for disposition, and over 
900 individuals were taken off the welfare rolls until their warrant(s) 
were cleared. In 1999 we initiated ``Operation Clean Sweep'' which 
entailed sending our felony warrants to New York City to ``Cross-
Match'' against their welfare rolls. It produced 385 matches of which 
90 were authorized for rendition. Thirty six individuals authorized for 
rendition were located and taken into custody. Notable arrests in New 
York included subjects wanted for Rape, Rape of a child, Armed Assault 
to Murder, and Illegal Possession of a firearm. The remaining wanted 
individuals were removed from the welfare rolls in New York until they 
cleared their warrants in Massachusetts. We then reversed the process 
with New York City and matched our welfare records against their felony 
warrants. An additional one hundred and forty four matches were 
identified. The same process was done with the State of Connecticut 
with one hundred thirty five matches identified. We are attempting to 
pass legislation in Massachusetts that will provide law enforcement the 
ability to ``Cross-Match'' data bases with the Department of Revenue 
and the Department of Employment and Training. Even at the Federal 
level, although some measures have been taken with Social Security, 
SSI, and Food Stamps, more has to be done to make it easier to obtain 
``Cross-Matching'' information. The administrative subpoena authority 
granted the USMS would solve some of these problems. At both the 
federal and state levels, we have to stop subsidizing wanted felons 
with tax payers money.
    4. Over the years the USMS have run several Task Force operations, 
one of which was called F.I.S.T. back in 1984. This operation brought 
to light the serious problem that Massachusetts had with warrants. This 
program also resulted in the creation of the Mass. State Police 
Fugitive Section as we know it today. Other Task Force Operations over 
the years such as ``Operation Sunrise, Operation Trident'' and 
``Operation Gun-Smoke'' have also proven successful. From the knowledge 
learned through these operations, the Mass. State Police Fugitive 
Section has adopted what we call today ``Warrant Sweeps''. These 
``Warrant Sweeps'' target the top 20 cities that have the most violent 
felony warrants. We then coordinate with the local police departments 
and conduct early morning raids. These ``WarrantSweeps'' have proven 
very successful and although you are dealing with the lesser felony 
charges, assault & battery etc., they clear a larger amount of warrants 
in a short time. With access to the previously mentioned welfare data 
bases we were able to increase our arrest rate from 1 in 10 to 4 in 10. 
With the added manpower resources and monies supplied by the USMS we 
can surmise that the Fugitive Apprehension Act of 2000 could only 
improve our apprehension rate.
    5. I believe if we are ever going to get ahead of the curve in 
fugitive apprehensions, we need the resources and cooperation of all 
facets of government, both federal and state. Not just law enforcement 
agencies, but agencies that control the data have to participate in the 
sharing of information. We ask only that they return information that 
is relevant to the apprehension of wanted violent felons. I can't 
stress enough that we must stop subsidizing wanted fugitives and aid in 
their escape from justice. We must also get the courts, district 
attorney's office, department of corrections, probation departments and 
parole agencies involved as we have in Massachusetts. All working 
together to hold these fugitives on bail and supervise and detain these 
individuals which create a threat to society. Without full cooperation 
between all agencies we will be in the same sinking ship 10 years from 
now, trying to figure out the same questions we are trying to answer 
today. An example in Massachusetts of not getting support from 
Government is the issue of ``dead beat dads''. It is a high profile 
priority in most states and rightly so. Investigators from the 
Department of Revenue have access to millions of records throughout the 
state and country. These records are unavailable to law enforcement 
personnel who could be looking for more serious offenders such as 
murders, rapist, and armed robbers. We are attempting to rectify this 
problem but in the meantime more innocent parties will be victimized 
while we wait. The legislative bill filed in Massachusetts is asking 
these state agencies to allow us to supply data to them (wanted 
felons). All we are asking is that they return data to us if the wanted 
individual is in their system.
    6. Another very serious growing trend in this country is the 
ability for fleeing felons to obtain false identification and assume 
the identity of another person. I see this as the next major obstacle 
in the apprehension of fugitives. It is estimated that in the state of 
Massachusetts there are thousands of counterfeit or illegally obtained 
drivers licenses and identification cards. We can surmise that a large 
majority of these false identifications are used by wanted fugitives. 
We have investigated several cases in Massachusetts which leads us to 
believe that there is a major problem with this type of activity. At 
present you can go to the internet and order a drivers license from any 
state in the country. There are also internet sites and books available 
which give step by step instruction on how to change your identity. One 
investigation in Massachusetts revealed that gang members were using 
falsely obtained drivers licenses to change their identity, because of 
past crimes they had committed. This is where the Social Security 
Administration and Supplement Security Income (SSI) can play a key role 
in validation of Social Security numbers and fraud. Although Social 
Security and SSI are cooperative on a case by case basis we need more 
use of computerized ``Cross-Matching'' of databases to get a better 
picture of the real problem.
    7. I have been on the board of directors of the National 
Association of Fugitive Investigators (NAFI) since its' inception in 
1991 where we began with the states of South Carolina, Georgia, New 
York and Massachusetts. NAFI was incorporated in South Carolina in 
1994. The USMS played a large part in our formation by providing their 
expertise in the field of Fugitive Investigations. This year will be 
our 10th anniversary and we are returning to Charleston, South Carolina 
where it all began. We have grown to over 600 members, representing 45 
states, consisting of State, Federal, Local and Sheriff agencies across 
the country. The main purpose of the association was to increase our 
networking nationwide. The networking obtained at these conferences has 
proven to be another major tool in the apprehension of fugitives. The 
reason for our success is that these officers know the value of talking 
to someone who does fugitive investigations on a full time basis. The 
other valuable asset of the conference is the knowledge sharing that 
takes place, and the new ideas that are brought forward in the 
apprehension of fugitives. The referral cases for fugitives out of 
state have increased ten fold since the associations formation. We now 
have the networking capabilities to contact state, local, and federal 
agencies throughout the country and know our case will be in competent 
hands.
    8. In closing I will reiterate the basis for a successful fugitive 
apprehension program. First and foremost you must make it a priority. 
Most state and local departments just don't have the ability to do this 
because of manpower and resources available. Second, we need the 
resources to do the job right. This means appropriations for personnel 
and equipment, but also means the cooperation of all law enforcement 
and non law enforcement entities in the state, i.e., Administrative 
Subpoena Powers, computerized ``Cross-Matching'' abilities, the 
cooperation of the District Attorneys, Probation, Parole, Corrections, 
and all state agencies that can contribute to the goal of fugitive 
apprehension. We must stop subsidizing wanted criminals in this 
country. Lastly, we do not lack the initiative, dedication, and 
commitment of our law enforcement people, however we do lack a few 
tools that would make us more effective.
    ``HE ESCAPES WHO IS NOT PURSUED''--Sophocles
            Respectfully, submitted,
            Kevin M. Horton, Detective Lieutenant, 
      Massachusetts State Police, Violent Fugitive 
                              Apprehension Section.

[GRAPHIC] [TIFF OMITTED] T3292A.001

    Senator Thurmond. I see that we have a vote on. We will 
have about 5 or 10 minutes for questions.
    Marshal Brooks, I understand that the fugitive task force 
in South Carolina has been very successful. Could you explain 
how you have addressed the fugitive there and what lessons you 
have learned that other jurisdictions could apply to assist 
their efforts?
    Mr. Brooks. Senator, I think the task force in South 
Carolina has been very successful because we have had 46 
counties in that State, we have had deputization of officers 
that help out our task force.
    Some of the lessons that we have learned in working on 
State, Federal, and local warrants is that we need to adapt to 
the participating agencies while addressing the needs of the 
U.S. Marshals Service.
    Another area that might be of concern is, Senator, that I 
would encourage that the initial steps for agencies considering 
sponsoring a task force, they need to outline a collective 
spending plan while defining the memorandum of understanding 
between agencies. This would allow each agency to define their 
responsibilities well and determine all available resources 
that may be utilized before the operation is up and running. 
This would include, but not limited to, manpower, equipment, 
vehicles, and training.
    But I think one of the most important, and the last one 
that I would caution you on, is the ultimate result of the task 
force participation is best achieved when no one agency is 
attempting to be the superior agency and they all should work 
together without getting one agency to say that they are tops. 
Thank you, sir.
    Senator Thurmond. Thank you. Mr. Norris, how serious is the 
fugitive threat in Baltimore and do you find that fugitives 
often commit additional crimes before they are caught?
    Mr. Norris. Yes, Mr. Chairman. The threat to the citizenry 
of Baltimore is extraordinary. As you stated in your opening 
remarks, there are about 60,000 open warrants in our city, 
which is one of the most violent in the country. Unfortunately, 
we do not know how many crimes they commit as they remain 
unapprehended. However, we know they do not retire and go drive 
a truck for UPS. They continue to do whatever they were doing 
prior to being caught the first time. So the threat is enormous 
to our citizens and speed is everything. If we catch them 
within the first week, 2 weeks, 3 weeks, you save that many 
more crime victims if the person does not go unapprehended for 
several months.
    Senator Thurmond. Thank you. Sheriff Sullivan, do the 
sheriffs share statistics and communicate to learn from each 
other innovative ways to track and prioritize future 
apprehensions?
    Mr. Sullivan. The most innovative and most productive way 
is through task force operations, where we share the personnel, 
share the technology, and in some cases some have better 
technology than others. But by going into a task force 
operation, we can share that technology, skills, and ability 
and be far more effective. So, yes, we try to innovate and 
share as much as we can.
    Senator Thurmond. Lieutenant Horton, we see that the focus 
of law enforcement seems to change from time to time. Drugs, 
organized crime, and gangs are all recent examples. It seems 
that fugitives are a major component of all of these problems. 
Would you agree that controlling fugitives helps control all 
these problems?
    Mr. Horton. Mr. Chairman, I think without a doubt, every 
gang unit, every organized crime unit that is out there, one of 
their primary ways of getting these people is through warrants, 
through warrant apprehension. With the establishment of task 
forces to look into all these situations, you will see that 
most of them have got long criminal histories, have all got 
default warrants. They would be a major, major way to get these 
people.
    Senator Thurmond. This question is for all of you, and do 
not elaborate, just answer, because time is about up. Do you 
find the assistance of the Marshals Service to be vital to your 
efforts to apprehend fugitives?
    Mr. Brooks. Yes, sir, I do.
    Mr. Norris. Yes, I do, sir, very much so.
    Mr. Sullivan. Yes, sir. They have been great partners for 
the sheriffs of this country and were pretty helpful at one 
time when we were able to use the U.S. Marshals airlift, but 
that has kind of disappeared because of the press of business.
    Mr. Horton. Yes, sir. Most of the training and techniques 
that we incorporate in the State police are from the U.S. 
Marshals.
    Senator Thurmond. Before we close, I would like to ask 
unanimous consent to place in the record a statement from the 
Federal Bureau of Investigations.
    [The prepared statement of the Federal Bureau of 
Investigations follows:]

Prepared Statement of Andreas Stephens, on Behalf of the Federal Bureau 
                            of Investigation

    Mr. Chairman and Members of the Subcommittee I am privileged to 
have this opportunity to provide this written statement regarding the 
need for administrative subpoena authority in furtherance of fugitive 
investigations. Unfortunately, the FBI is all too aware of the dangers 
fugitives present to law enforcement and the public. FBI Agents pursue 
and apprehend armed and dangerous fugitives on a daily basis. On one 
tragic day in May 1995, Special Agent William Christian, Jr., was shot 
and killed while conducting a surveillance to apprehend a murder 
fugitive. The subject subsequently killed himself. Within the past 
month, two prisoners, serving sentences for violent crimes escaped from 
prison in Mississippi. The prisoners led FBI Agents, working with other 
law enforcement agencies, on a nationwide search, prior to being 
apprehended in Indiana. In order to avoid apprehension, the fugitives 
are alleged to have bound, gagged and robbed an elderly couple in 
Mississippi, ``hog-tied'', assaulted and robbed a man in West Virginia, 
robbed a man in Indiana and fired at law enforcement officers who 
attempted to apprehend them.
    Understanding the risk to law enforcement and the public, the 
objective of FBI fugitive investigations is to effect the swift 
location and apprehension of all FBI fugitives, particularly those 
wanted in connection with crimes of violence, substantial property loss 
or destruction, illicit drug trafficking, terrorism, and parental 
abductions. Through its 56 field offices, in addition to 35 Legal 
Attache offices throughout the world, the FBI has an extensive network 
available to support fugitive investigations. The FBI employees its 
entire arsenal of investigative techniques to locate fugitives, who 
have developed increasingly sophisticated methods to avoid 
apprehension. Fugitive investigations are manpower intensive and can 
require extensive time to resolve. For example, the average duration of 
an investigation to locate and apprehend a fugitive on the FBI's Ten 
Most Wanted List is 316 days.
    Our fugitive investigations have become increasingly difficult and 
complex as options for communications services have become so varied. 
These complexities require intensive coordination between international 
law enforcement agencies, the business community and the public. If a 
law providing administrative subpoena authority in fugitive 
investigations is passed, federal law enforcement will gain a valuable 
tool in assisting state and local law enforcement to locate and 
apprehend violent fugitives. Many organizations and businesses refuse 
to provide law enforcement with information due to liability concerns. 
Businesses including telephone companies, apartment buildings, hotels 
and landlords often maintain records that are crucial to the 
expeditious apprehension of a fugitive and would not object to 
releasing the information contained within their records, with the 
protection of a subpoena.
    Any legislation should guarantee that this limited subpoena 
authority is not misused. Approval authority should be set through 
guidelines issued by the Attorney General. Records soughtshould be 
relevant or material, and facts should exist that demonstrate that the 
records sought are likely to provide information regarding the location 
of the fugitive. Finally, administrative subpoenas must comply with 
rules and regulations established under existing statutes, such as 
Title 18 U.S.C. Sec. 2703 and Title 12 Sec. 3402.
    The FBI has statutory authority to investigate fugitive matters 
wherein the fugitive has fled the state's jurisdiction to avoid 
prosecution or confinement. This authority is given to the FBI in Title 
18, U.S.C. Sec. 1073, Unlawful Flight to Avoid Prosecution (UFAP). This 
statute prohibits ``persons from moving or traveling in interstate 
commerce in order to avoid prosecution, confinement, or service of 
process in connection with felonies under the laws of the place from 
which flight is taken.'' Violations of Title 18 U.S.C. Sec. 1073 may be 
prosecuted only upon formal approval in writing of the Attorney 
General, Deputy Attorney General, Associate Attorney General or 
Assistant Attorney General. Per DOJ policy, no indictment may be sought 
and no information may be filed, nor any criminal proceedings be 
instituted under Rule 40, Federal Rules of Criminal Procedure without 
the approval of the Assistant Attorney General, Criminal Division. 
Because Federal Grand Jury Proceedings against subjects of UFAP 
investigations are extremely rare, Federal Grand Jury subpoenas are 
generally not used in UFAP investigations. The only available 
mechanisms are the All Writs Act, court orders, and state and local 
subpoenas. These options are often cumbersome in effectively responding 
to modern fugitive investigations. For each new record sought, 
investigators must halt the investigation in order to draft affidavits, 
travel to meet with prosecuting attorneys, and interrupt the duty 
magistrate before serving the order.
    A recent example of a fugitive investigation in which 
administrative subpoena authority would have assisted investigators is 
the search to apprehend H. Rapp Brown, also known as Jamil Abdullah Al-
Amin. On March 16, 2000, two Fulton County Sheriff's deputies were shot 
while attempting to arrest H. Rapp Brown, who was a fugitive charged by 
local authorities with impersonating a police officer. As the two 
deputies approached Brown's grocery store in Atlanta's West End, the 
deputies were engaged by gunfire. Both deputies were struck by 
projectiles from an M-16 rifle. Deputy Ricky Kinchen died as a result 
of his injuries. H. Rapp Brown was charged with shooting the deputies. 
The Fulton County Sheriff requested the assistance of the FBI in 
locating and apprehending Brown. The USMS service also offered to 
assist in the investigation. For the next five days, investigators 
worked around the clock to locate Brown. Investigators believed that 
Brown was using a cellular phone to contact associates in order to flee 
the country. On March 20, 2000 investigators tracked Brown to the area 
of Mobile, Alabama. As FBI Agents and Deputy U.S. Marshals narrowed the 
search for Brown, they were fired upon. A perimeter was established and 
Brown was apprehended without further incident.
    This significant investigation was delayed due to the lack of 
administrative subpoena authority. In order to locate Brown, FBI Agents 
repeatedly had to return to a U.S. Magistrate in order to obtain court 
orders for subscriber information and toll records. Because cellular 
phone companies, like Internet service providers, often sell blocks of 
numbers to smaller companies, Agents were forced to weave through 
multiple layers of bureaucracies in order to locate Brown.
    The FBI and USMS are the primary DOJ components responsible for 
apprehending fugitives. The FBI and USMS participate in working groups 
with other law enforcement agencies including the U.S. Immigration and 
Naturalization Service, Department of Justice,Office of International 
Affairs, and the Department of the Treasury. These working groups aid 
in coordination of investigations, and minimize investigative overlaps.
    In 1992, the FBI's Safe Streets Task Forces (SSTF) were initiated 
to address the increasing violent crime problem which was overwhelming 
state and local law enforcement. There are currently 60 FBI lead task 
forces involved in the apprehension of fugitives. Of these 60 task 
forces, 25 are exclusively fugitive task forces. Through the early 
establishment of fugitive task forces, the FBI has been able to 
establish the professional bonds necessary to work with local 
authorities in violent crime matters. The ``Safe Streets'' initiative 
was designed to allow the Special Agent in Charge (SAC) of each FBI 
field office to address violent crime, street gangs and drug related 
violence, through the establishment of FBI sponsored, long term, 
proactive task forces focusing on crimes of violence and the 
apprehension of violent fugitives.
    Although the initiation of formal FBI fugitive investigations 
involving state and local fugitives are conducted through the Unlawful 
Flight process, the USMS can initiate fugitive investigations pursuant 
to special apprehension programs (such as Fugitive Investigative Strike 
Teams and Warrant Apprehension Narcotics Teams) and other special 
situations approved by the Associate Attorney General, pursuant to 28 
Code of Federal Regulations Sec. 566. If state or local authorities 
request the assistance of the USMS in locating or apprehending a 
fugitive and it is determined that the fugitive is the subject of an 
FBI warrant, the USMS refers the requesting agency to the FBI for 
assistance and notifies the FBI of the request by the state or local 
authority.
    By order of the Attorney General and memorandum of Understanding, 
the FBI and USMS have distinct fugitive apprehension responsibilities. 
The FBI has apprehension responsibility for all arrest warrants issued 
as a result of FBI investigations. In FBI led multiple agency task 
force investigations, the FBI retains apprehension responsibility. In 
the event of a bond default, the FBI maintains apprehension 
responsibility for all FBI fugitives, at all times prior to an 
adjudication of guilt. Although the USMS generally has apprehension 
responsibility in cases involving violations of the Federal Escape and 
Rescue Statutes, upon written notification to the USMS, the FBI has 
exclusive apprehension responsibility at any stage of any case 
involving an existing FBI Foreign Counterintelligence, FBI Organized 
Crime, or FBI Terrorism investigation. Additionally, the FBI may assume 
responsibility in any case in which the FBI is seeking the fugitive on 
an arrest warrant based on charges filed by the FBI for an additional 
offense beyond the charge for which the subject is a fugitive.
    As previously indicated, the FBI has statutory authority to 
investigate fugitive matters wherein the fugitive has fled the state's 
jurisdiction to avoid prosecution or confinement, under Title 18 U.S.C. 
Sec. Sec. 1073 and 1074. In exercising its jurisdiction, the FBI does 
not seek an Unlawful Flight warrant when the USMS is already seeking 
the fugitive as an escape, probation/parole, mandatory release, or bond 
default violator. Similarly the FBI does not seek an Unlawful Flight 
warrant against any fugitive already sought by the USMS pursuant to the 
Federal Escape and Rescue statutes. The FBI notifies the USMS of any 
state or local requests for Unlawful Flight assistance in the above 
situations. The FBI also notifies local or state authorities when the 
USMS is already seeking that person. The above provisions do not 
preclude the USMS from providing available information to state and 
local law enforcement agencies regarding fugitives being sought by 
their jurisdictions.
    In furtherance of all FBI investigative responsibilities, the FBI 
has arrested a total of 133,094 individuals during FYs 1995-1999. Of 
these arrests, 65,359 were arrested for Unlawful Flight to Avoid 
Apprehension, in furtherance of the FBI's fugitive program designed to 
assist local authorities in the apprehension of interstate and 
international fugitives.
    Every FBI subject of an investigation that becomes a fugitive is 
entered into the National Crime Information Center (NCIC) computer 
system. During Fiscal Years (FY) 1995-1999, the FBI pursued 27,981 
fugitives. Of the fugitives entered between 1995 and 1999, all but 
4,545, have been removed from NCIC, as a result of arrest or dismissal 
of process. Currently, the FBI has a total of 7,269 outstanding federal 
warrants obtained as a result of FBI investigations. Additionally, 60 
FBI sponsored task forces are currently conducting approximately 1,883 
preliminary inquiries regarding state and local fugitives for evidence 
of interstate flight. These fugitives are wanted by state and local 
authorities for violent crimes such as rape, robbery and homicide.
    These figures do not include the many instances in which FBI 
efforts led to the arrest of a fugitive even where the FBI does not 
actually arrest the fugitive. Through the NCIC system, the FBI assists 
other law enforcement agencies with the identification fugitives. FBI 
liaison with law enforcement and the media is a vital component in the 
fugitive apprehension process. In cases in which FBI fugitives are 
located in a foreign country, the FBI Legal Attache, assigned to the 
host nation, coordinates closely with the Department of Justice, Office 
of International Affairs, United States Immigration and Naturalization 
Services, and the Department of State to effect the arrest and 
extradition of the fugitive. Once extradition has been authorized, the 
United States Marshals Service is generally responsible for the 
physical return of the fugitive to the United Stats.
    The USMS and the FBI have distinct responsibilities with respect to 
the location and apprehension of fugitives sought in the United States 
by a foreign government. The FBI has location and apprehension 
responsibility for a foreign fugitive whenever the fugitive, or the 
organization of which he is a current member, is the subject of an 
existing FBI Foreign Counterintelligence, FBI Organized Crime, or FBI 
terrorism investigation; whenever the FBI is seeking the fugitive on an 
arrest warrant for a Federal offense; whenever the fugitive is the 
subject of an FBI investigation which it is currently conducting at the 
request of the foreign government concerned; and whenever a referral 
has been made exclusively to the FBI through one of its 35 Legal 
Attache offices. A recent example of the effectiveness of the FBI's 
Legal Attache program is the arrest of Andras Lakatos. Through liaison 
with the FBI Legal Attache in Vienna, Austria, a provisional warrant 
authorizing the arrest of Lakatos was issued. Lakatos was charged by 
Hungarian authorities with racketeering and fraud, and was considered 
to be one of Hungary's top fugitives. FBI Agents coordinated an 
international effort to locate Lakatos. On June 8, 2000, FBI Agents in 
Miami, Florida arrested Andras Lakatos after he arrived on a flight 
from Las Vegas, Nevada.
    In order to improve its effectiveness in apprehending international 
fugitives, the FBI's participation in Interpol has greatly expended in 
recent years. By redesigning applications, the FBI has established a 
mechanism to obtain Interpol international fugitive notices for 
significant fugitive cases. Through participation in Interpol, the FBI 
has greatly supplemented the efforts of the legal attache offices to 
assist in fugitive investigations.
    Some of the resources utilized by the FBI to generate publicity to 
aid in locating and apprehending fugitives include: Identification 
Orders (distributed worldwide); Wanted Flyers (distributed worldwide); 
Circular Letters (distributed to a substantive region of the country); 
Internet: FBI Website: FBI.GOV (international); and Television Media: 
America's Most Wanted, Unsolved Mysteries, 20/20 and international new 
sources. INTERPOL; Radio: Voice of America; National Crime Information 
Center database; and FBI rewards program (including $50,000 for 
information leading to the arrest of Ten Most Wanted Fugitives). Public 
Source data base; Foreign Fugitive Database; and Department of Justice/
Office of International Affairs.
    The FBI's Identification Orders, Wanted Flyers and Circular Letters 
are distributed to approximately 60,000 recipients around the world. A 
recent survey reflects that these flyers directly assist in locating 
fugitives in approximately half the cases sampled. The use of 
television media and the Internet have greatly expanded the ability of 
the FBI to circulate information regarding the FBI's fugitives. The 
most visible resource employed by the FBI is the Ten Most Wanted List. 
Since 1995, approximately 60 fugitives featured on Wanted Flyers and 
Identification Orders have been apprehended, including 15 Ten Most 
Wanted fugitives. ABC News recently produced a documentary recognizing 
the 50th anniversary of the creation of the Ten Most Wanted List, which 
aired in March, 2000.

                TOTAL FBI APPREHENSIONS FOR FY 1995-1999
------------------------------------------------------------------------
                  Fiscal year                       Number of arrests
------------------------------------------------------------------------
1999...........................................                   25,066
1998...........................................                   27,114
1997...........................................                   26,331
1996...........................................                   27,125
1995...........................................                   27,458
                                                ------------------------
    Total FBI apprehensions....................                  133,094
------------------------------------------------------------------------


            FBI UNLAWFUL FLIGHT APPRHENSIONS FOR FY 1995-1999
------------------------------------------------------------------------
                  Fiscal year                       Number of arrests
------------------------------------------------------------------------
1999...........................................                   10,633
1998...........................................                   12,228
1997...........................................                   12,886
1996...........................................                   14,357
1995...........................................                   15,255
                                                ------------------------
    Total FBI unlawful flight apprehension.....                   65,359

------------------------------------------------------------------------

    Mr. Chairman, and members of the Subcommittee, I would like to 
thank you for giving me the opportunity to provide this written 
statement to you regarding this very significant matter. Crime surveys 
reflect that fugitives from justice are likely to continue criminal 
activity in order to avoid apprehension. Violent fugitives pose a 
serious and continuing threat to public safety. In recent years, 
fugitives have become more sophisticated and more violent. The 
expansion of the Internet and globalization of world economies has made 
it possible for criminals to easily obtain fraudulent identification 
documents which allow them to cross international boundaries in order 
to avoid apprehension. Law enforcement officers need evolving 
investigative techniques in order to execute their duty to protect and 
serve the public. By providing federal law enforcement with 
administrative subpoenas, you will greatly enhance our ability to 
fulfill that duty. We look forward to working with all members of the 
Subcommittee throughout the legislative process.

    Senator Thurmond. I would also like to place in the record 
a statement from the Fraternal Order of Police.
    [The prepared statement of the Fraternal Order of Police 
follows:]

 Prepared Statement of Gilbert G. Gallegos, on Behalf of the Fraternal 
                            Order of Police

    Good afternoon Mr. Chairman, Senator Schumer, and members of the 
Subcommittee; it is an honor to appear before you again. My name is 
Gilbert G. Gallegos, and I am the National President of the Grand 
Lodge, Fraternal Order of Police. With over 290,000 members, the F.O.P. 
is the largest law enforcement labor organization in the nation. I am 
appearing before you today on an issue which is of the utmost concern 
to law enforcement at every level of government. And as the title of 
this hearing suggests, it is one which poses an ever increasing threat 
to law enforcement and public safety.
    The problem of fugitives from justice in Federal and State felony 
cases is one which exacts a heavy toll on law enforcement's ability to 
reduce crime in our communities. While we can all be proud of the years 
of continuous decline in the overall crime rate, we have not seen a 
corresponding reduction in the number of fugitives across the country. 
In fact, the exact opposite has occurred. There are currently over 
500,000 fugitives from justice entered with the National Crime 
Information Center (NCIC); a number estimated to be only 20 percent of 
all outstanding State and local felony warrants. These are often 
desperate individuals who will do everything in their power to avoid 
apprehension, and who continue to commit additional crimes while at-
large.
    In addition, criminals and fugitives are becoming more adept at 
using the latest technology to change their identities. Just last 
month, the Washington Post reported on the story of Robert Crutchfield, 
a convicted murderer from the D.C. area and a fugitive from justice for 
more than twenty-five years. Crutchfield obtained a new driver's 
license and identity, enabling him to disappear until he was arrested 
earlier this year in Denton, North Carolina by what the newspaper 
described as ``pure chance''. And with the ability to create a new 
identity becoming increasingly easier, the number of individuals and 
the length of time they can successfully remain fugitives will no doubt 
continue to increase.
    The U.S. Marshals Service is the lead Federal law enforcement 
agency in tracking down and apprehending these dangerous individuals. 
They are responsible for the arrest of more fugitives than any other 
agency, with roughly 30,000 captures per year. However, with the 
current resources available to the Marshals Service, and the increasing 
number of fugitives, they face a difficult task. To try and stem this 
tide, the Marshals have been working with State and local law 
enforcement in jointly fugitive apprehension task forces across the 
United States. First established as short-term operations such as 
Operations Sunrise and Gunsmoke I and II, the Marshals Service 
currently operates permanent multi-agency task forces in over 150 
communities. By pooling intelligence and resources, these cooperative 
efforts have increased the effectiveness of law enforcement in locating 
and apprehending these individuals.
    The successes of the fugitive task forces have proven that this is 
a program that works, and one which should be supported and expanded to 
other parts of the country. That is why the Fraternal Order of Police 
is proud to join you, Mr. Chairman, and Senator Biden in support of S. 
2516, the ``Fugitive Apprehension Act of 2000.'' The primary result of 
this legislation will be an added focus on capturing fugitives while 
providing other law enforcement agencies with the tools they need to 
effectively reduce the number of these individuals roaming our streets.
    First and foremost, S. 2516 would provide the Marshals Service with 
the resources they need to establish additional permanent Fugitive 
Apprehension Task Forces and supplement the funding available to 
existing operations. The cooperation betweenthe Marshals and other 
Federal, State and local agencies has proven to be an effective 
approach to reducing the number of fugitives in the jurisdictions where 
they currently operate. They combine the expertise and intelligence 
capabilities of the Marshals Service with ther personnel and assets of 
other law enforcement agencies, and provide specialized training in 
fugitive apprehension to State and local law enforcement personnel.
    Not only will the legislation increase the personnel and assets 
dedicated to the apprehension of fugitives, it will also provide law 
enforcement with the legal resources necessary to quickly act on 
information regarding their whereabouts. To do so, section (3) of the 
bill amends current law to provide for administrative subpoena 
authority in fugitive investigations. Currently available to the 
Justice Department in controlled substance-related criminal 
investigations and administrative proceedings, S. 2516 also contains 
important safeguards to prevent the abuse of this important provision. 
In any investigation involving a fugitive from justice, the ability to 
act quickly on information about that individual's location is 
paramount to a successful apprehension. Delay for even a few hours can 
make the difference between capture and the further flight of these 
dangerous individuals. Access to the records available under the 
administrative subpoena authority provided to the Attorney General 
would be of tremendous assistance in helping to locate the fugitive.
    In addition, this section further allows Federal law enforcement to 
issue an administrative subpoena to assist their State and local 
counterparts in the apprehension of State fugitives when they affect 
interstate commerce or when there is a request for assistance from the 
appropriate state official. This provision is essential to assisting 
State and local law enforcement locate and apprehend fugitives who 
cross State lines to avoid capture, and to the proper functioning of 
regional, multi-agency fugitive apprehension task forces.
    The problem of fugitives from justice is one which is growing at an 
alarming rate. The legislation which you and Senator Biden have 
introduced provides for a nationwide response, and represents the 
proper approach to dealing with the large number of fugitives who have 
chosen to evade our criminal justice system. The Fraternal Order of 
Police stands ready to work with you and your staffs to ensure the 
speedy passage of this important legislation. On behalf of the 
membership of the Fraternal Order of Police, I would like to thank you 
again for your leadership on this issue, and for allowing our 
organization the opportunity to submit testimony for this hearing.
[GRAPHIC] [TIFF OMITTED] T3292A.002

[GRAPHIC] [TIFF OMITTED] T3292A.003

[GRAPHIC] [TIFF OMITTED] T3292A.004

[GRAPHIC] [TIFF OMITTED] T3292A.005

    Senator Thurmond. I also wish to place in the record 
letters of support for S. 2516, the Fugitive Apprehension Act, 
from the National Sheriffs Association, Fraternal Order of 
Police, the National Association of Police Organizations, and 
the Federal Law Enforcement Officers Association.
    [The letters regarding S. 2516 are located in the 
appendix.]
    In addition, I ask unanimous consent to place into the 
record a letter from the Fraternal Order of Police regarding S. 
1898, the Interstate Transportation of Dangerous Criminals Act 
of 1999.
    [The letter regarding S. 1898 is located in the appendix.]
    We are going to keep this record open for one week for 
additional materials and for follow-up questions.
    Unless somebody has something else, the hearing now stands 
adjourned and we thank all of you very much.
    [Whereupon, at 2:59 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


    Responses of John W. Marshall to Questions From Senator Thurmond

    Question 1. Mr. Marshall, please list and describe the fugitive 
task forces that are currently operating.
    Answer. There are generally six types fugitives task forces in 
which the USMS participates. A list of each type of task force and a 
brief description of the task forces' missions follows:

    1. Operation Weed and Seed: Operation Weed and Seed is administered 
by the Executive Office for Weed and Seed (EOWS) within the U.S. 
Department of Justice (DOJ). The program currently operates in 200 
sites. The program is designed to control violent crime, drug 
trafficking, and drug-related crime; and to provide a safe environment 
in which residents can live, work, and raise their families. The Weed 
and Seed crime control strategy is composed of 3 primary elements:

<bullet> Weeding: law enforcement efforts to remove violent offenders, 
        drug traffickers, and other criminals from the target areas. 
        This is the component in which the USMS and other law 
        enforcement agencies are involved.
<bullet> Seeding: human services and neighborhood revitalization 
        efforts to prevent and deter further crime; and
<bullet> Community policing: proactive police-community engagement and 
        problem solving.

    2. High Intensity Drug Task Forces (HIDTA): the HIDTA's mission is 
to reduce drug trafficking in the most critical areas of the country. 
This is accomplished by teamwork among local, state and federal 
efforts. To qualify as a HIDTA, an area must:

<bullet> Be a major center of illegal drug production, manufacturing, 
        importation, or distribution;
<bullet> Have state and local law enforcement agencies already engaged;
<bullet> Have a harmful impact on other areas of the country; and,
<bullet> Require a significant increase in federal resources.

    3. Organized Crime and Drug Enforcement Task Forces (OCDETF): The 
OCDETF is a federal drug enforcement program that focuses attention and 
resources on the disruption and dismantling of major drug trafficking 
organizations. OCDETF provides a framework for federal, state and local 
law enforcement agencies to work together to target well-established 
and complex organizations that direct, finance, or engage in illegal 
narcotics trafficking and related crimes. The program has been in 
existence since 1982 and operates under the guidance and oversight of 
the Attorney General.
    4. Federal Bureau of Investigation (FBI) Safe Streets Task Forces: 
The FBI announced the Safe Streets Violent Crimes Initiative in 1992. 
The mission of Safe Streets task forces is to attack street gang and 
drug-related violence, as well as seek the most significant fugitives 
wanted for crimes of violence through the establishment of long-term, 
proactive and coordinated teams of federal, state and local law 
enforcement officers and prosecutors.
    5. USMS Violent Felon/Violent Offender Fugitive Task Forces: The 
USMS leads numerous task forces, the goal of which is to apprehend 
violent federal fugitives, as well as the ``most wanted'' state and 
local fugitives.
    6. Local and State Fugitive Task Forces: These task forces are led 
by state bureaus of investigation, local police departments and 
sheriffs.
    For further information, I have enclosed a February 2000 internal 
publication which outlines all multi-agency fugitive task forces that 
the USMS sponsors and/or in which the USMS participates. (United States 
Marshals Service Fugitive Task Forces, Section B.)

    Question 2. Mr. Marshall, does the National Crime Information 
Center (NCIC) wanted persons database contain all felony fugitives in 
federal cases, and how many such fugitives are there today?
    Answer. According to NCIC, all federally-wanted persons are 
contained in the database. As of July 31, 2000, the NCIC database 
contained 530,000 federal, state and local fugitives. At times, the 
number of federal fugitives in the database has exceeded 45,000.

    Question 3. Mr. Marshall, I understand that the National Crime 
Information Center wanted persons database does not contain all felony 
fugitives. Are you aware of states that have more felony or other 
serious fugitives that do not include all such fugitives in the NCIC 
database? If so, please list those states and statistics.
    Answer. NCIC maintains the database and is more suited to provide 
detailed information. It is the USMS's understanding that approximately 
20 percent of state and local wanted felons in the United States are 
entered into NCIC. The USMS obtained the following information from 
newspaper articles and select state/local law enforcement offices:

----------------------------------------------------------------------------------------------------------------
                                                                                                 Percent not in
                         State                           Reported by State    Felons in NCIC          NCIC
----------------------------------------------------------------------------------------------------------------
MA.....................................................             87,707              3,409                 96
MO.....................................................             26,250             18,018                 31
OH.....................................................             35,453             11,020                 69
CA.....................................................            233,060             38,926                 83
UT.....................................................              7,826              1,391                 82
WI.....................................................             10,890              7,594                 30
----------------------------------------------------------------------------------------------------------------


    Question 4. Mr. Marshall, if a fugitive is wanted for warrants 
under the jurisdictions of more than one agency (such as the Federal 
Bureau of Investigation [FBI] and USMS) at the same time, what efforts 
do the agencies make to coordinate to prevent duplication from both 
agencies looking for the same fugitive at the same time?
    Answer. Generally, the USMS and other agencies work together at 
both the local and headquarters' levels in order to avoid duplication 
of effort. Occasionally, however, one agency will take the lead and 
provide the other agency with the information from the investigation.

    Question 5. Mr. Marshall, what Memorandums of Understandings (MOUs) 
does the Marshals Service have today with other federal agencies? 
Please explain.
    Answer. The USMS has MOUs with several federal agencies. These MOUs 
are agreements between the USMS and another federal agency for the 
Marshals Service to assume both administration and apprehension 
responsibility for those agencies' fugitives. The USMS currently has 
MOUs in place with the following agencies:
    Drug Enforcement Administration, U.S. Customs Service, Internal 
Revenue Service, Criminal Investigation Division, Naval Criminal 
Investigative Service, Air Force Office of Special Investigations, 
Defense Criminal Investigative Service, Social Security Administration, 
Department of Justice, Office of Inspector General (OIG), Food & Drug 
Administration, Office of Criminal Investigations, Department of 
Interior, U.S. Fish and Wildlife Service, Department of Agriculture, 
OIG.

    Question 6. Mr. Marshall, is the USMS working to increase the 
number of MOUs that it has with other federal agencies? Please explain.
    Answer. The USMS has MOUs, or is in the process of establishing 
MOUs, with all the major federal law enforcement agencies, except for 
the U.S. Secret Service and the INS. The USMS is in various stages of 
finalizing fugitive MOUs with the following agencies:
    Bureau of Alcohol, Tobacco and Firearms, Health & Human Services, 
OIG, Housing and Urban Development, OIG.
    Smaller federal agencies do not have the resources or expertise to 
enter fugitives into the NCIC database or conductinvestigations to 
locate and apprehend fugitives. Therefore, the USMS will continue to 
assist these smaller agencies with this mission.

    Question 7. Mr. Marshall, would the federal system regarding 
fugitives be more efficient if the USMS had responsibility for all 
federal wanted persons who were in fugitive status for a specified 
period of time?
    Answer. By statute, the USMS and the FBI have the authority to 
pursue and arrest fugitives. The USMS has primary apprehension 
authority for arrest warrants issued by United States District Courts 
and the United States Parole Commission. The USMS traditionally does 
not independently initiate investigations against individuals for 
crimes against the United States.
    Currently, the Marshals Service works the overwhelming majority of 
federal fugitive cases. These federal cases include USMS fugitives as 
well as MOU agencies' fugitives, as discussed above.

    Question 8. Mr. Marshall, I understand that the work years 
attributed to the fugitive program in your annual reporting to the 
Congress are not all directly related to fugitive apprehensions, and 
include other duties such as the [time] spent on threats against 
judges. Is it important to clarify the work years for the fugitive 
apprehension program to keep them more accurate?
    Answer. The USMS believes that recording the hours dedicated to 
fugitive apprehension is critical. Currently, the USMS is working on a 
system to equate hours worked in fugitive investigations to a 
particular fugitive. This will assist the USMS in analyzing hours 
worked on a particular fugitive case with apprehension time and cost 
per arrest.

    Question 9. Mr. Marshall, are smaller districts closing a higher 
percentage of the warrants that they receive than larger districts, and 
if so, are you working to address this disparity?
    Answer. Through the 94 districts, there are varying numbers of 
active warrants, ranging from 10 (or less) to 2,000. As can be 
expected, smaller districts have smaller caseloads, whereas larger 
districts have larger caseloads. In districts with smaller caseloads, 
the warrant closure rate is higher because there are fewer cases to 
close. From a management standpoint, it is easier to manage and 
investigate 10 warrants rather than 2,000. The USMS has developed an 
internal formula that we have used during our Fugitive Investigative 
Strike Team (FIST).operations to establish the number of warrants per 
deputy. The ultimate goal is to have each Deputy U.S. Marshal assigned 
25 warrants. With adequate resources, the USMS could achieve this goal.

    Question 10. Mr. Marshall, a recent follow up review of the 
Fugitive Apprehension Program by the Department of Justice Office of 
Inspector General recommended that you establish a quantifiable goal 
for apprehending violent fugitives. [Has] this been completed, and if 
so, please explain the goal.
    Answer. The Office of Inspector General (OIG) report issued in 
January 2000, recommended three changes to our performance measures 
within the fugitive program:
    1. Raise our goal to close Class I warrants under one year from 80 
percent to 85 percent. The USMS has accomplished this goal.
    2. Enhance the Warrant Information Network (WIN), which is in 
progress. Congress appropriated $1.6 million to the USMS in Fiscal Year 
2000 for database enhancements. Approximately $400,000 is being used to 
enhance the WIN System.
    3. Establish a quantifiable goal for apprehending violent 
fugitives. We are currently conducting research to establish this goal. 
Although the OIG report recommends establishing this goal, it notes 
that the USMS arrest of violent felons increased from 1994 to 1998. The 
report stated, ``When we [OIG] analyzed WIN data, we found that the 
percentage of violent fugitives the USMS apprehended out of all 
warrants closed increased by 27 percent from FY 1994 through FY 1998.''
                               __________

    Responses of Edward T. Norris to Questions From Senator Thurmond

    Question 1. Mr. Norris, is there a growing problem today with 
judges allowing a defendant to be released on a relatively low bail and 
then the defendant failing to return for his court appearance, as a 
component of the growing fugitive population?
    Answer. There is, and current data seems to verify a growing 
problem. The Baltimore Police Department's warrant database, as of July 
24, 2000, indicates there are 54,093 active warrants in the system. Of 
those, 14,202 are for failure to appear. In these cases, a defendant 
either received a relatively low bail or was released on their own 
recognizance without a bail. These warrants represent 26.3% of the 
total warrants in the system. That data holds true for the year 2000. 
Of the 8,534 warrants in the system issued in the year 2000, 2,643 
represent failure to appear cases. Those warrants represent 30.9% of 
the total issued this year.

    Question 2. Mr. Norris, do you find that cross-matching databases, 
such as welfare and food stamps, is an effective way to help find 
fugitives, and do government agencies that control the data fully 
cooperate in these efforts?
    Answer. Cross matching databases is an effective tool to locate 
fugitives and has had a positive effect on our efforts. On August 22, 
1996, the President signed the Personal Responsibility and Work 
Opportunity Reconciliation Act, known as Welfare Reform, into law. The 
law specifies that fugitives and those violating conditions of parole 
or probation are ineligible for food stamps. This has made it possible 
for state social service agencies to provide law enforcement 
authorities certain identifying information from their files pertaining 
to fugitives. In 1997, the U.S. Department of Agriculture conducted a 
nationwide effort called Operation Talon, in which the Baltimore Police 
Department participated. This initiative, the first of it's kind, 
cross-matched databases of state social service agencies with 
information from law enforcement, resulting in the arrest of 2198 
fugitives. A similar local initiative is currently being prepared and 
will be conducted prior to year's end. The Baltimore Police 
Department's Warrant Apprehension Unit has cross matched databases for 
occupants of public housing, real property and vital statistics. We are 
currently working to enhance our relationship with the Maryland Motor 
Vehicle Administration. For the most part, all agencies we have 
contacted have been helpful.

    Question 3. Mr. Norris, is the N.C.I.C. wanted person database 
effective in helping to track fugitives, and can changes be made to 
make the system more efficient and effective?
    Answer. N.C.I.C. is an effective and reliable tool to aid in 
locating fugitives. It provides a host of valuable information, such as 
past criminal history, places of prior residency, out of state 
registration of vehicles or boats, and ownership of real property. The 
only deficiency may be a lack of timely information, as some 
jurisdiction may not readily enter information regarding fugitives or 
additional information as to a willingness to extradite.

    Question 4. Mr. Norris, violent crime has decreased nationally 
every year since 1992, but the number of dangerous fugitives appears to 
be increasing, based on N.C.I.C. data. Why does there seem to be no 
connection between the crime rate and the number of fugitives?
    Answer. I would suggest there is a connection between the crime 
rate and the number of fugitives. The decrease of the crime rate has 
resulted from many factors, including new technology, creative problem 
solving and an increase in the level of cooperation and coordination 
between jurisdictions. Indeed, regional and inter-jurisdictional 
approaches to fighting crime are a successful national trend. More 
crimes, especially crimes of violence, are being solved and the 
perpetrators identified. Longer sentences, as well as mandatory 
sentences, contribute to a known perpetrator's effort to avoid 
prosecution, hence expanding the N.C.I.C. wanted person database.
                                 ______
                                 

   Responses of Patrick J. Sullivan, Jr., to Questions From Senator 
                                Thurmond

    Question 1. Do you find that cross matching databases, such as 
welfare and food stamps, is an effective way to help find fugitives, 
and do government agencies that control the data fully cooperate in 
these efforts.
    Answer. Cross matching data bases is a good way to locate fugitives 
however, there are times where the information on the fugitives does 
not get to the appropriate agency. In August of 1999, the Fugitive Unit 
participated in Operation Talon which resulted in the arrest of 109 
food stamp recipients. We do not receive information on fugitives from 
the Federal Government on a regular basis.
    We currently receive information from the Colorado Bureau of 
Investigation on fugitives that receive Social Security Benefits, 
Unemployment compensation and other services from Colorado. We find 
this information helpful in the apprehension of wanted felons. There 
have been times where the recipient is not at the listed location and 
the address is just a place for the fugitive to pick up a check. One 
problem that we run into is private agencies that receive federal funds 
for subsidized housing refuse to help us with information regarding 
wanted felons. They normally cite the Freedom of Information Act and 
require us to get a search warrant.

    Question 2. Is the NCIC wanted person database effective in helping 
to track fugitives, and can changes be made to make the system more 
efficient and effective?
    Answer. The NCIC database is an effective way to locate fugitives. 
We currently use the ``QQ'' screen, which tells us if an agency has 
queried an individual, the ``QDA'' screen which gives us information on 
vehicles that are registered to individuals, the arrest record, pawn 
and drivers information. One area of improvement would be a database in 
the computer of individuals that are in jail or prison. There are times 
when a warrant comes out for an individual that is incarcerated in 
prison or jail and we have no way of obtaining that information.

    Question 3. Violent crime has decreased nationally every year since 
1992, but the number of dangerous fugitives appear to be increasing, 
bases on NCIC data. Why does there seem to be no connection between the 
crime rate and the number of fugitives?
    Answer. Clearance rates for all crimes decreased in the `60's, 
`70's, and `80's i.e. homicides dropping from about 95% to in the 60% 
range. New technology such as DNA and increased investigative time 
previously tied up with higher rates of violent crime has allowed more 
case clearances creating more warrants for arrest. Plus, an increased 
rate of failure to appears after conditional release (bonding), and 
warrants for increased rates of probation and parole violations. The 
'90's saw much less respect for the courts and defendants willingness 
to appear.
                               __________

      Responses of Kevin Horton to Questions From Senator Thurmond

    Question 1. Lieutenant Horton, we see that the focus of law 
enforcement seems to change from time to time. Drugs, organized crime, 
and gangs are all recent examples. It seems that fugitives are a major 
component of all of these problems. Would you agree that controlling 
fugitives helps control all of these problems?
    Answer. It has been proven time and time again that the easiest way 
to control organized crime, drugs and gangs is by enforcing warrants on 
these individuals. Not only does it get them off the streets but it 
gives investigators a change to interview and question these 
individuals. It gives law enforcement the leverage that might be needed 
to solve a case, obtain intelligence, a photograph, fingerprints, or 
recruit a cooperative individual.

    Question 2. Lieutenant Horton, based on your experience, do you 
think that state and local law enforcement needs to do more to make 
fugitives a top priority? Please explain.
    Answer. Yes, more has to be done to make fugitives a ``top 
priority''. As I have stated above, when fugitives are made a top 
priority, as in Massachusetts, the police will produce results. The 
problem has always been that police departments will follow the lead of 
the Federal Government and go where the ``grants'' for resources and 
manpower are. Whether its community policing, gangs, organized crime, 
or fugitives, the police will go to where the money is. What they don't 
seem to understand is that fugitive apprehension can effect all of 
these priorities.

    Question 3. Lieutenant Horton, does law enforcement in your area of 
the Northern Border have problems with fugitives fleeing to Canada, and 
how cooperative are federal agencies in assisting with your efforts to 
extradite fugitives?
    Answer. Over the last fifteen years we have had very few fugitive 
fleeing to Canada. We have always used the Royal Mounted Police or the 
local department of jurisdiction. For fugitives out of country other 
then Canada, we use the Marshals and Interpol.

    Question 4. Lieutenant Horton, is there a growing problem today 
with judges allowing a defendant to be released on a relatively low 
bail and then the defendant failing to return for his court appearance, 
as a component of the growing fugitive population?
    Answer. In my opinion, the number one problem for the growing 
number of fugitives in this State, is the release of fugitives on low 
bail or no bail at all and the failure of the District Attorney's 
office's to authorize rendition for individuals located out of state. 
In fairness to the courts, the prisons are full, when the prisons are 
full the fugitive population increases. The courts give the fugitive a 
new court date and release him/her to return on said date. The veteran 
criminal knows that he/she will get one or two continuances and a new 
court date, so he/she will show for court until they know its trial 
time. At this time they will default and the cycle continues. The other 
major problem is the fleeing felon. These individuals are usually the 
more serious felons and they flee to another state. After he/she is 
located, but before he/she is arrested, authorization from the District 
Attorney of jurisdiction is required. It has been my experience that it 
is about a 50/50 chance they will authorize rendition. The problem 
isn't that they won't authorize rendition, the problem is they won't 
dismiss the warrant(s) which leaves us with a number of serious violent 
warrants and know prosecution.

    Question 5. Lieutenant Horton, do you find that cross-matching 
databases, such as welfare and food stamps, is an effective way to help 
find fugitives, and do government agencies that control the data fully 
cooperate in these efforts?

    Answer. Without a doubt, the most significant positive change, in 
the way we apprehend fugitives is ``cross-matching databases.'' Cross-
matching databases gives the fugitive investigator more accurate 
information on the location of an individual. It has also brought to 
light the fact that State and Federal governments are subsidizing 
wanted criminals. At present we are working with the U.S. Department of 
Agriculture, Office of Inspector General, and the U.S. Department of 
State, Diplomatic Security Service and have found their cooperation 
outstanding. The one federal organization that seems unable to fully 
cooperate is the Office of Inspector General, Social Security. Social 
Security has a wealth of information and we need more access and less 
``red-tape''. Also with all the false identifications today we need 
Social Security's help in identifying bogus SS#'s. I JUST RECEIVED A 
LETTER FROM SOCIAL SECURITY, INSPECTOR GENERAL JAMES HUSE, ADVISING 
THEY WILL BE CONTACTING ME REGARDING ``CROSS-MATCHING''. I guess 
someone read my letter!

    Question 6. Lieutenant Horton, is the N.C.I.C. wanted person 
database effective in helping to track fugitives, and can changes be 
made to make the system more efficient and effective?
    Answer. N.C.I.C. has always been a valuable tool in tracking and 
apprehending fugitives. It is the only national system we have to let 
other states know who is wanted. The failure of the system lies with 
the States not the Federal Government. The States failure to enter all 
violent fugitives into N.C.I.C. is a national problem, that beings with 
it tremendous liability. The officer on patrol should know when he 
encounters a violent fugitive and that fugitive should be in N.C.I.C. I 
believe that the federal government should mandate that all violent 
fugitives be entered into N.C.I.C.

    Question 7. Lieutenant Horton, violent crime has decreased 
nationally every year since 1992, but the number of dangerous fugitives 
appears to be increasing, based on N.C.I.C. data. Why does there seem 
to be no connection between the crime rate and the number of fugitives?
    Answer. I don't agree that they are more violent fugitives and less 
violent crimes! I do agree that they are more fugitives and less crime. 
There are a couple of reasons why we have more fugitives and a drop in 
the crime rate. As stated above, the jails are full, so in turn more 
fugitives are being released on bail and defaulting again, and again, 
and again. We also have the wide spread use of false identifications 
whereby you could have one individual committing numerous crimes under 
numerous names. In Massachusetts we have a problem with our probation 
warrants. When a individuals defaults on a probation warrant in 
Massachusetts, the original warrant is re-entered. If that warrant was 
for a violent crime, that is what we give N.C.I.C. to re-enter. When in 
fact it is a probation matter! You also have, as was mentioned above, 
the fleeing felon who know one wants back and the warrant remains in 
the system.
    We all know the system is broke and over worked. If all the people 
who were suppose to go to court on a given day reported for court, the 
whole court system would collapse. The problem we face today is, not 
only do we know the system doesn't work, but the bad guys know the 
system doesn't work, and the consequences for defaulting are non-
existent!
                 Additional Submissions for the Record

                              ----------                              


                    National Sheriffs' Association,
                                      Alexandria, Virginia,
                                                    March 31, 2000.
Hon. Strom Thurmond,
President Pro Tempore, U.S. Senate, Washington, DC.
    Dear Senator Thurmond: I am writing to strongly support your 
legislation, the Fugitive Apprehensive Act of 2000. The National 
Sheriffs' Association (NSA) appreciates your efforts on behalf of law 
enforcement.
    As you know, fugitives from justice place enormous burdens on law 
enforcement at every level of government. Empowering the United States 
Marshals Service to help state and local law enforcement capture 
fugitive felons is essential to reducing the backlog of cases that 
exist today. According to recent estimates, there are approximately 
45,000 fugitives in federal felony cases. Combined with the more than 
500,000 state and local fugitives; it is easy to see the problem. Your 
legislation will crate task forces, led by U.S. Marshals, that will 
focus solely on apprehending fugitive felons. With this increased 
federal support and dedication to a single mission, we can expect to 
see a dramatic reduction in the number of fugitive felons.
    NSA looks forward to working with you to ensure that this 
legislation becomes law. With its enactment, resources will be targeted 
to meet the threat posed by those who flee from justice. The bill will 
enable federal, state and local law enforcement to work together to 
apprehend fugitives and bring them to justice.
            Sincerely,
                             Philip H. McKelvey, President.
                               __________

                         Fraternal Order of Police,
                              National Legislative Program,
                                 Washington, DC, February 22, 2000.
Hon. Strom Thurmond,
U.S. Senate, Washington, DC.
    Dear Senator Thurmond: I am writing on behalf of the more than 
285,000 members of the Fraternal Order of Police to advise you of our 
strong support for legislation you intend to introduce entitled the 
``Fugitive Apprehension Act of 2000.''
    The problem of fugitives from justice in Federal and State felony 
cases is one which has a tremendous impact on public safety, and on law 
enforcement's ability to reduce crime in our communities. Each year the 
U.S. Marshals Service arrests thousands of these fugitives, often with 
the assistance of State and local law enforcement officers 
participating in joint Federal-State fugitive task forces. This program 
has been highly successful in every area of the country and helped to 
reduce the number of fugitives in felony cases.
    Your legislation will provide the Marshals Service with the 
resources they need to continue and expand this highly effective 
program, allowing Federal and State law enforcement officers to share 
intelligence, personnel and assets to reduce the number of fugitives 
attempting to flee justice.
    On behalf of the membership of the Fraternal Order of Police, I 
would like to thank you for sharing with us a draft of this 
legislation, and to thank you for your continued efforts in support of 
law enforcement. If I can be of any further assistance on this or any 
other issue, please do not hesitate to contact me or Executive Director 
Jim Pasco through our Washington office.
            Sincerely,
                                       Gilbert G. Gallegos,
                                                National President.

         National Association of Police Organizations, Inc.
                                     Washington, DC, June 21, 2000.
Hon. Strom Thurmond,
U.S. Senate, Washington, DC.
    Dear Senator Thurmond: Please be advised of the National 
Association of Police Organizations' (NAPO) endorsement of S. 2516, the 
`Fugitive Apprehension Act of 2000.' I want to thank you and Senator 
Biden for your leadership on this important piece of legislation for 
law enforcement.
    NAPO is a coalition of police unions and associations from across 
the United States that serves in Washington, DC to advance the 
interests of America's law enforcement officers through legislative and 
legal advocacy, political action and education. Founded in 1978, NAPO 
now represents 4,000 police organizations and 220,000 sworn law 
enforcement officers.
    Criminals who become fugitives are often a threat to public safety 
and pose serious problems for law enforcement when evading court 
jurisdictions. NAPO supports S. 2516, which would set up permanent 
`Fugitive Apprehension Task Forces' around the country. These task 
forces would assist federal, state and local law enforcement 
authorities in locating and apprehending fugitives. It is important for 
federal, state and local agencies to work together in apprehending 
these individuals.
    If I can be of any assistance on this or any other matter, please 
have your staff contact me at (202) 842-4420.
            Sincerely,
                                          Robert T. Scully,
                                                Executive Director.
                               __________

               Federal Law Enforcement Officers Association
                                                      May 17, 2000.
Hon. Strom Thurmond,
U.S. Senate, Washington, DC.
    Dear Senator Thurmond: On behalf of the more than 18,000 members of 
the Federal Law Enforcement Officers Association (FLEOA). I wish to 
thank you for introducing the Fugitive Apprehension Act of 2000, and 
express our strong support for S. 2516. This proposal provides funding 
for task forces made up of federal, state and local law enforcement to 
locate and apprehend fugitives in felony cases, and also bestows 
administrative subpoena authority to the United States Marshals 
Service. Effective law enforcement requires the passage of this 
legislation.
    According to estimates, there are about 45,000 fugitives in Federal 
felony cases. The number of serious federal offense warrants received 
by the U.S. Marshals Service has increased each year for the past four 
years. In addition, over 500,000 fugitives in State and local felony 
cases have been entered into the National Crime Information Center 
(NCIC). This number is up from 340,000 reported in 1990. NCIC estimates 
that they receive only about 20 percent of all outstanding State and 
local felony warrants in the country. If their estimates are correct, 
then there could be over 2.5 million State and local felony fugitives 
in the country. This presents a serious problem in the fight on crime, 
and a danger to the safety and security of Americans.
    FLEOA, a volunteer, non-partisan, professional association, with 63 
chapters across America, is the largest association representing 
exclusively federal agents. FLEOA is looking forward to working with 
you and your staff to ensure movement of this bill through the Senate 
and any companion legislation in the House. If you have any questions 
or need further information, please feel free to contact me at (212) 
264-8400 or through FLEOA's Administrative Services Office at (717) 
938-2300. Again, thank you for proposing this bill.
                                                  Richard J. Gallo.
                               __________

                    Grand Lodge--Fraternal Order of Police,
                                     Washington, DC, June 22, 2000.
Hon. Strom Thurmond,
Chairman, Subcommittee on Criminal Justice Oversight, Committee on the 
        Judiciary, U.S. Senate, Washington, DC.
    Dear Mr. Chairman, I am writing on behalf of the more than 290,000 
members of the Fraternal Order of Police to advise you of our 
opposition to S. 1898, the ``Interstate Transportation of Dangerous 
Criminals Act of 1999.''
    In many ways, States and local units of government are turning more 
and more toward privatizing services in an effort to cut public costs. 
While this trend may in fact provide cheaper services to citizens, law 
enforcements is not a service that can ever be safely contracted out to 
private firms. No private firm or corporation will ever have the same 
level of training, professionalism or accountability as fully sworn law 
enforcement agents. The rise of the private correctional industry in 
our country is of especially great concern to me because putting our 
nation's criminals in the hands of a for-profit company is a recipe for 
disaster, placing the public at greater risk.
    This legislation proposes to regulate private companies who 
contract to transport prisoners. These regulations promulgated by the 
U.S. Attorney General, will foster a false sense of security and 
reliance on these firms and their personnel, who do not have the same 
kind of training or experience in dealing with dangerous criminals. The 
legislation fails to clearly recognize that even with these regulations 
in place, escapes and other mishaps are much more likely when prison 
transfers and other correctional responsibilities are handled by non-
law enforcement personnel.
    We agree that the transport of dangerous criminals is a serious 
public safety issue, but we strongly disagree with Senator Dorgan that 
the solution is writing regulations for private companies. Quite the 
opposite, it may lead to more State and local governments using private 
companies, meaning the public will be at greater risk. When dealing 
with dangerous criminals, there is no substitute for fully trained, 
sworn law enforcement officers. We are hopeful that the defeat of this 
legislation will cause those looking to save a few dollars to think 
twice about trying to cut costs at the expense of public safety.
    If there is anything further I can do, please do not hesitate to 
contact me or Executive Director Jim Pasco through my Washington 
office.
            Sincerely,
                                       Gilbert G. Gallegos,
                                                National President.

                                <all>

</pre></body></html>
